No.
IN THE

Supreme Court of the United States
NATIONAL BOARD OF MEDICAL EXAMINERS,
v.

Petitioner

JESSICA RAMSAY,
Respondent
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI
Robert A. Burgoyne
Caroline Mew
PERKINS COIE LLP
700 Thirteenth Street N.W.
Suite 600
Washington, DC
20005-3960
202.654.1744

Eric B. Wolff,
Counsel of Record
Alison R. Caditz
PERKINS COIE LLP
1201 Third Avenue
Suite 4900
Seattle, WA 98101-3099
206.359.8000
EWolff@perkinscoie.com

Counsel for Petitioner

-iQUESTION PRESENTED
Under the Americans with Disabilities Act
(“ADA”), a “disability” is “a physical or mental impairment,” 42 U.S.C. § 12102(1)(A), that “substantially limits the ability of an individual to perform a
major life activity as compared to most people in
the general population,” 28 C.F.R. § 36.105(d)(1)(v).
This case applies that standard in the context
of requests for accommodations on high-stakes
standardized tests. The Third Circuit held that
Jessica Ramsay—who, among other academic accomplishments, achieved a top-3% score on the
reading-intensive ACT college-admission test, outscoring over a million other college-bound examinees—has a reading disability entitling her to significant extra testing time on a medical licensing
exam, based on a diagnosis from a private evaluator who advertises his specialty as securing extra
time on standardized tests.
The question presented is whether the Third
Circuit erred in holding—in conflict with decisions
by eight other circuits and contrary to this Court’s
precedent—that the “substantial limitation” standard requires (1) disregarding evidence of real-world
academic and standardized testing performance,
and (2) giving greater weight to a claimant’s evaluator than to the opinions of independent medical
professionals whose expertise is not contested, but
who did not personally evaluate the examinee.

-iiPARTIES TO THE PROCEEDINGS
Petitioner National Board of Medical Examiners was the Defendant-Appellant below.
Respondent Jessica Ramsay was the PlaintiffAppellee below.

-iiiCORPORATE DISCLOSURE STATEMENT
NBME is a nonprofit corporation. It has no
parent corporation, and no publicly traded corporation owns 10% or more of its stock.

-ivRELATED PROCEEDINGS
Ramsay v. Nat’l Bd. of Med. Exam’rs, No. 201058 (3rd Cir.) (opinion issued and judgment entered July 31, 2020; petition for rehearing en banc
denied Sept. 1, 2020).
Ramsay v. Nat’l Bd. of Med. Exam’rs, No. 19cv-2002 (E.D. Pa.) (memorandum and order issued
Dec. 30, 2019).
There are no additional proceedings in any
court that are directly related to this case.

-vTABLE OF CONTENTS
PAGE
QUESTION PRESENTED ...................................... i
PARTIES TO THE PROCEEDINGS ..................... ii
CORPORATE DISCLOSURE STATEMENT ....... iii
RELATED PROCEEDINGS .................................. iv
TABLE OF APPENDICES ................................... vii
TABLE OF AUTHORITIES ................................ viii
OPINIONS BELOW................................................ 1
JURISDICTION ...................................................... 1
STATUTORY AND REGULATORY
PROVISIONS INVOLVED .................................. 2
INTRODUCTION ................................................... 4
STATEMENT OF THE CASE ................................ 6
A. NBME and the USMLE ............................... 6
B. Jessica Ramsay............................................. 7
C. Proceedings Below ...................................... 12
REASONS FOR GRANTING THE PETITION ... 15
I. The Third Circuit’s interpretation of
the “substantial-limitation” standard
conflicts with decisions by eight other
circuits and this Court ............................... 16
A. The ADA and “substantial
limitation” ............................................. 16

-viTABLE OF CONTENTS (CONT.)
PAGE
B. The Third Circuit effectively
eliminated the “substantiallimitation” requirement ........................ 20
1. The Third Circuit’s treatment
of real-world evidence conflicts
with eight other circuits .................. 20
2. Requiring deference to in-person
evaluations conflicts with this
Court’s precedent ............................. 29
3. The ADAAA did not eliminate
the substantial-limitation
requirement ...................................... 34
II. The Court’s review is warranted given
the exceptional importance of this
commonly applied standard ....................... 38
CONCLUSION ...................................................... 45

-viiTABLE OF APPENDICES
APPENDIX A — OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT, FILED
JULY 31, 2020 .................................................... 1a
APPENDIX B — MEMORANDUM AND
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE EASTERN
DISTRICT
OF
PENNSYLVANIA,
FILED DECEMBER 31, 2019.......................... 25a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT,
FILED SEPTEMBER 1, 2020 .......................... 80a
APPENDIX D — RAMSAY ACADEMIC
AND TESTING SUMMARIES ........................ 82a

-viiiTABLE OF AUTHORITIES
CASES

PAGE(S)

B.C. v. Mount Vernon Sch. Dist.,
837 F.3d 152 (2d Cir. 2016).................... 18, 36, 38
Bartlett v. N.Y. State Bd. of Law Exam’rs,
970 F. Supp. 1094 (S.D.N.Y. 1997) .................... 31
Bercovitch v. Baldwin Sch., Inc.,
133 F.3d 141 (1st Cir. 1998) ................... 18, 23, 24
Bibber v. Nat’l Bd. of Osteopathic Med. Exam’rs,
No. 15-4987, 2016 WL 1404157
(E.D. Pa. Apr. 11, 2016) ..................................... 26
Black & Decker Disability Plan v. Nord,
538 U.S. 822 (2003) .................................. 5, 30, 33
Black v. Nat’l Bd. of Med. Exam’rs,
281 F. Supp. 3d 1247 (M.D. Fla. 2017) .............. 26
Collins v. Prudential Inv. & Ret. Servs.,
119 F. App’x 371 (3d Cir. 2005) ......................... 25
Doherty v. Nat’l Bd. of Med. Exam’rs,
791 F. App’x 462 (5th Cir. 2019) .................. 18, 37
Ellenberg v. N.M. Military Inst.,
572 F.3d 815 (10th Cir. 2009) ............................ 37
Gonzales v. Nat’l Bd. of Med. Exam’rs,
225 F.3d 620 (6th Cir. 2000) ........................ 17, 23

-ixTABLE OF AUTHORITIES (CONT.)
PAGE(S)
Healy v. Nat’l Bd. of Osteopathic Med. Exam’rs,
870 F. Supp. 2d 607 (S.D. Ind. 2012) ................. 26
Hetherington v. Wal-Mart, Inc.,
511 F. App’x 909 (11th Cir. 2013) ...................... 25
Mancini v. City of Providence ex rel. Lombardi,
909 F.3d 32 (1st Cir. 2018) ................................. 18
Morriss v. BNSF Ry. Co.,
817 F.3d 1104 (8th Cir. 2016) ............................ 37
Neely v. Benchmark Fam. Servs.,
640 F. App’x 429 (6th Cir. 2016) ........................ 37
Neely v. PSEG Tex., Ltd. P’ship,
735 F.3d 242 (5th Cir. 2013) .............................. 36
Palotai v. Univ. of Md.,
38 F. App’x 946 (4th Cir. 2002) .......................... 25
Perez v. Mortg. Bankers Ass’n,
575 U.S. 92 (2015) .............................................. 31
PGA Tour, Inc. v. Martin,
532 U.S. 661 (2001) ...................................... 16, 17
Powell v. Nat’l Bd. of Med. Exam’rs,
364 F.3d 79 (2d Cir. 2004) .............................. 7, 41
Reynolds v. Am. Nat’l Red Cross,
701 F.3d 143 (4th Cir. 2012) .............................. 36

-xTABLE OF AUTHORITIES (CONT.)
PAGE(S)
Rhodes v. Langston Univ.,
462 F. App’x 773 (10th Cir. 2011) ...................... 25
Richardson v. Chi. Trans. Auth.,
926 F.3d 881 (7th Cir. 2019) .............................. 37
Ristrom v. Asbestos Workers Local 34 Joint
Apprentice Comm.,
370 F.3d 763 (8th Cir. 2004) ........................ 19, 25
Singh v. George Wash. Univ. Sch. of
Med. & Health Scis.,
508 F.3d 1097 (D.C. Cir. 2007) .................... 19, 25
Toyota Motor Mfg., Ky., Inc. v. Williams,
534 U.S. 184 (2002) .......................... 17, 18, 34, 36
Weaving v. City of Hillsboro,
763 F.3d 1106 (9th Cir. 2014) ...................... 24, 37
Winter v. Nat. Res. Def. Council,
555 U.S. 7 (2008) ................................................ 15
Wong v. Regents of Univ. of Cal.,
410 F.3d 1052 (9th Cir. 2005) ............................ 24
STATUTES
28 U.S.C. § 1254 ...................................................... 1
42 U.S.C. § 12101 ...................................... 16, 18, 44
42 U.S.C. § 12102 ........................................ 2, 17, 34

-xiTABLE OF AUTHORITIES (CONT.)
PAGE(S)
42 U.S.C. § 12189 ............................................ 17, 43
Pub. L. No. 110-325,
122 Stat. 3553 (2008) ................................... 18, 34
REGULATION
28 C.F.R. § 36.105 ..........................................passim
LEGISLATIVE HISTORY
Statement of the Managers, 154
Cong. Rec. S8840, S8841-42
(Sept. 16, 2008) ................................................... 35
OTHER AUTHORITIES
75 Fed. Reg. 56,236 (Sept. 15, 2016) .................... 31
81 Fed. Reg. 53,204 (Aug. 11, 2016) ..................... 36
Allyson Harrison, An Investigation of
Methods to Detect Feigned Reading
Disabilities, Archives of Clinical
Neuropsychology 89 (2010) ................................ 27
B. Sullivan, Symptom Exaggeration by
College Adults in Attention-Deficit
Hyperactivity Disorder & Learning Disorder
Assessments, 14 Applied Neuropsychology
189 (2007) ........................................................... 28

-xiiTABLE OF AUTHORITIES (CONT.)
PAGE(S)
Benjamin Lovett, Disability Identification
& Educ. Accommodations: Lessons from
the 2019 Admissions Scandal,
49 Educ. Researcher 125 (2020) .................. 27, 28
Craig S. Lerner, Accommodations for
the Learning Disabled: A Level Playing
Field or Affirmative Action for Elites,
57 Vand. L. Rev. 1043 (2004) ....................... 39, 42
D. Rado, Many Illinois High School
Students Get Special Testing Accommodations
for ACT, Chi. Tribune (Apr. 29, 2012),
www.chicagotribune.com/news/ct-met-testingaccommodations-20120429-58-story.html ........ 43
D. Belkin, Many More Students, Especially
the Affluent, Get Extra Time to Take the
SAT, Wall Street Journal (May 21, 2019) ......... 43
Elaine Howle, Bureau of State Audits,
Standardized Tests (2000),
www.bsa.ca.gov/pdfs/reports/2000-108.pdf. ...... 42
G.E. Zuriff, Extra Examination Time
for Students with Learning Disabilities:
An Examination of the Maximum
Potential Thesis, 13 J. Applied
Measurement 99 (2000) ..................................... 41

-xiiiTABLE OF AUTHORITIES (CONT.)
PAGE(S)
J. Joy, Assessment of ADHD Documentation
from Candidates Requesting
[ADA] Accommodations for the
Nat’l Bd. of Osteopathic Med. Exam’rs
COMLEX Exam, 12(2) J. of
Attention Disorders 104 (2010) ......................... 32
Laura A. Miller, Effects of Extended
Time for College Students with
and without ADHD, 19 J. of Attention
Disorders 678 (2015) .................................... 39, 40
Michael Gordon et al., The LD Label
for Relatively Well-Functioning
Students: A Critical Analysis, 32 J.
of Learning Disabilities 485 (1999) ............. 19, 43
N. Leong, Beyond Breimhorst: Appropriate
Accommodation of Students with
Learning Disabilities on the SAT,
57 Stan. L. Rev. 2135 (2005) .............................. 41
Robert Weis et al., When Average Is
Not Good Enough: Students With
Learning Disabilities at Selective,
Private Colleges, J. of Learning
Disabilities 1 (2016) ....................................passim

-xivTABLE OF AUTHORITIES (CONT.)
PAGE(S)
Settlement Agreement Between
United States & NBME,
No. 202-16-181 (Feb. 11, 2011),
available at www.ada.gov/nbme.htm. ............... 31
V. R. Johnson, Standardized Tests,
Erroneous Scores, & Tort Liability,
38 Rutgers L. J. 655 (2007) ................................ 39
W. Mehrens, Accommodations for
Candidates with Disabilities,
63 The Bar Exam’r, No. 4 (1994) ....................... 32
Will Lindstrom, Postsecondary ADHD
Documentation Requirements:
Common Practices in the Context of
Clinical Issues, Legal Standards,
& Empirical Findings, 19 J. of
Attention Disorders 655 (2015) ................... 28, 33

-1PETITION FOR A WRIT OF CERTIORARI

The National Board of Medical Examiners
(“NBME”) respectfully petitions for a writ of certiorari to review the judgment of the U.S. Court of
Appeals for the Third Circuit.
OPINIONS BELOW
The Third Circuit’s opinion is reported at 968
F.3d 251 and reproduced in Appendix A (App.1a24a); its order denying NBME’s petition for rehearing en banc is unreported and reproduced at
Appendix C (App.80a-81a). The district court’s unreported memorandum and order granting Ramsay’s motion for a preliminary injunction is available at 2019 WL 7372508, and reproduced at Appendix B (App.25a-79a).
JURISDICTION
The Third Circuit issued its opinion on July
31, 2020. App.1a. That judgment became final on
September 1, 2020, when the court denied NBME’s
petition for rehearing en banc. App.80a-81a. Pursuant to this Court’s March 19, 2020 Order extending deadlines, this petition is timely. The
Court has jurisdiction under 28 U.S.C. § 1254(1).

-2STATUTORY AND REGULATORY
PROVISIONS INVOLVED
42 U.S.C. § 12102(1) provides that “[t]he term
‘disability’ means … a physical or mental impairment that substantially limits one or more major
life activities[.]”
28 C.F.R. § 36.105(d)(1)(v) provides that “[a]n
impairment is a disability … if it substantially
limits the ability of an individual to perform a major life activity as compared to most people in the
general population. An impairment does not need
to prevent, or significantly or severely restrict, the
individual from performing a major life activity in
order to be considered substantially limiting.
Nonetheless, not every impairment will constitute
a disability[.]”
28 C.F.R. § 36.105(d)(3)(iii) provides that
“someone with a learning disability may achieve a
high level of academic success, but may nevertheless be substantially limited in one or more major
life activities, including, but not limited to, reading, writing, speaking, or learning because of the
additional time or effort he or she must spend to
read, write, speak, or learn compared to most people in the general population.”
28 C.F.R. § 36.105(d)(1)(vi) provides that “[t]he
determination of whether an impairment substantially limits a major life activity requires an individualized assessment.”

-328 C.F.R. § 36.105(d)(1)(ii) provides that “the
threshold issue of whether an impairment substantially limits a major life activity should not
demand extensive analysis.”

-4INTRODUCTION
This appeal concerns the intersection of the
ADA and high-stakes testing, a controversial
crossroads contributing to recent high-profile college admissions scandals. At issue is the ADA’s
substantial-limitation requirement as applied to
students who claim to be legally disabled based on
diagnosed learning or attention disorders—
identified late in life by evaluators hired to help
secure testing accommodations—despite an academic record revealing decades of above-average
performance without accommodations.
It would seem reasonable that an individual
scoring in the top percentiles of national tests like
the ACT or SAT without accommodation, or repeatedly receiving high grades in high school and
college without accommodation, most likely is not
substantially limited in the activity of reading
compared to most people in the general population—the applicable standard. The Third Circuit,
however, ruled that NBME acted “contrary to the
regulations” by relying on such evidence and discounting inconsistent results from certain easilymanipulated diagnostic tests taken specifically to
secure accommodations. Further, the Third Circuit
ruled that the opinions of the evaluator personally
selected by the applicant necessarily outweigh
those of the testing agency’s independent professionals, simply because only the former conducted
an in-person evaluation.

-5Those conclusions conflict with decisions by
eight other circuits, which recognize the relevance
and importance of real-world academic performance in evaluating whether someone is “substantially limited” by a learning or attention disorder.
Nor can they be squared with this Court’s ruling
that, absent a statutory or regulatory requirement,
there is no basis for according special weight to the
opinions of a “treating physician.” Black & Decker
Disability Plan v. Nord, 538 U.S. 822, 831 (2003).
Here, the Third’s Circuit’s outlier interpretation of the amended ADA led to the remarkable
conclusion that Jessica Ramsay—who, without
any accommodation, scored in the top 3% on the
ACT exam, was near the top of her high-school
class, and did extremely well on the Medical College Admission Test (“MCAT”), App.82a-85a—is
legally disabled and entitled to twice the testing
time on medical licensing exams as her peers.
Ramsay sought multiple evaluations in her
quest to secure testing accommodations in medical
school and on the United States Medical Licensing
Examination (“USMLE”), and was eventually diagnosed by a chosen professional, for the first time,
with dyslexia. The psychologist who diagnosed her
was recommended to her lawyer as having helped
other students obtain extra time on medical licensing exams and advertises his specialty as “EXTENDED TIME & ACCOMMODATIONS FOR
STANDARDIZED EXAMS.” Dkt. 25 at 104.

-6The Third Circuit’s opinion would seem to be a
well-intentioned attempt to “help” someone with a
diagnosed impairment succeed. But giving unwarranted advantages to non-disabled students in
challenging post-secondary programs so they can
maximize their performance is not the goal of the
ADA, and in fact harms the truly disabled.
This Court’s review is needed to bring the
Third Circuit’s interpretation of the ADA in line
with a proper understanding of the statute, and
with decisions by its sister circuits and this Court.
Left unaddressed, unwarranted disability requests
related to high-stakes academic and licensing tests
will increase in the Third Circuit and likely elsewhere, and many will be granted, to the detriment
of other test-takers—including those who properly
deserve accommodation.
STATEMENT OF THE CASE
A.

NBME and the USMLE

NBME is a nonprofit organization that provides assessment services for physicians and other
health professionals. Dkt. 23 at 45. NBME sponsors the USMLE—a standardized test designed to
assess an individual’s ability to apply the
knowledge, concepts, and principles necessary for
safe and effective patient care. Id.; App.2a. Medical licensing authorities rely on USMLE scores as
part of their licensure process. Dkt. 23 at 46. Medical residency programs also rely on USMLE

-7scores in evaluating residency program applications. Dkt. 22 at 51.
The USMLE includes three multiple-choice
“Step” exams: Step 1, Step 2 (Clinical Knowledge),
and Step 3. App.2a.
All examinees take the USMLE under the
same conditions except individuals who are disabled within the meaning of the ADA. Dkt. 23 at 46.
NBME evaluates each request for accommodations—often (as here) with the assistance of external experts—and provides accommodations to disabled examinees. Id. at 47, 79. NBME’s “procedures are designed to ensure that individuals with
bona fide disabilities receive accommodations, and
that those without disabilities do not receive accommodations that they are not entitled to, and
which could provide them with an unfair advantage when taking the medical licensing examination.” Powell v. Nat’l Bd. of Med. Exam’rs, 364
F.3d 79, 88 (2d Cir. 2004).
B.

Jessica Ramsay

Jessica Ramsay, a medical student at Western
Michigan University, claims to be disabled based
on diagnoses of dyslexia and Attention Deficit Hyperactivity Disorder (“ADHD”) and entitled to
twice the standard testing time on the USMLE.
App.2a-3a.
1. Ramsay reports “a history of academic
struggle that began [her] first day in school” (Dkt.

-822 at 96), “[t]hat timed tests” have been her
“downfall” (Dkt. 24 at 120), and that she “rarely
got an exam grade that accurately reflected how
much [she] knew” (id. at 56). As part of one evaluation, she reported suffering from 17 of 18 ADHD
symptoms to the maximum severity (Dkt. 25 at 5354)—consistent with someone who cannot “function in school or work settings” (Dkt. 22 at 302)—
and to have received intensive, daily support “in
her earliest school years” for her “severe problems”
(id. at 96-98, 106, 110).
But the objective record paints an entirely different picture. See App.82a-85a (summary of Ramsay’s academic and testing history).
Ramsay excelled academically starting in kindergarten—when she earned a top-4% standardized reading score and, according to her teacher,
did “well in all areas.”1 Dkt. 23 at 150, 153. In elementary school, Ramsay earned mostly As, a
“mastery” notation in reading, and above-average
standardized test scores. Id. at 162; App.82a-85a.
Her third, fourth, and fifth grade report cards did
not mention any extra assistance, despite a specific section for noting “Specialized Reading Support”
or “Grades based on intensive teacher assistance.”
Dkt. 23 at 163, 170, 172. As Ramsay herself repre1 Learning disorders and ADHD are lifelong neurodevelopmental impairments that manifest during childhood. See
Robert Weis et al., When Average Is Not Good Enough: Students With Learning Disabilities at Selective, Private Colleges, J. of Learning Disabilities 1, 5 (2016); Dkt. 22 at 289.

-9sented to NBME pre-litigation, the only assistance
she received in her K-12 years consisted of limited
informal accommodations from a single teacher—
“not the school”—during first grade. Dkt. 24 at 54.
Ramsay received all As in middle school without accommodations and tested into an accelerated
program. Id. at 57; Dkt. 23 at 175. According to
her longtime physician, Ramsay had “no problems”
in high school (Dkt. 23 at 218), during which she
participated in extracurricular activities and
earned As in Honors and AP classes without accommodations or any ADHD-related medications.
Id. at 178; Dkt. 22 at 126, 170-74. Ramsay’s middle and high school records do not reflect a single
instance of extra support, and the only “accommodation” Ramsay pointed to from those years was
being allowed to retake an accelerated algebra test
after forgetting a calculator. Dkt. 24 at 57.
Ramsay received a top-3% score on the ACT
college-admission test under standard time conditions, including a reading sub-score in the top 1%
(Dkt. 23 at 192); earned As and Bs in college before receiving accommodations (id. at 205); and,
without accommodations, scored in the top 21% of
aspiring, highly capable medical students on the
MCAT, which includes a reading-intensive section
(id. at 245; Dkt. 22 at 144, 311-12).
2. In college, Ramsay was “tipped … off” she
“might have a problem” when she “could not get
above an A- on [Spanish] tests.” Dkt. 24 at 59-60.

-10That prompted her to visit her primary care physician, who did not formally diagnose her (according
to his records of the brief visit) but prescribed Ritalin and later submitted a form to her college saying she had ADHD. Dkt. 23 at 217-27.
In medical school, Ramsay sought out an evaluation from Charles Livingston, a social worker
and limited-license psychologist, to help her secure
accommodations and “meet the increased curricular demands” of medical school. Id. at 129, 249. He
found that Ramsay’s reading comprehension was
not only “above average,” but in the top 1%, and
that she performed in the average range on an attentional-functioning test. Id. at 59, 246, 251.
Nevertheless, he diagnosed Ramsay with ADHD
based on “biographical information,” i.e., Ramsay’s
self-reported severe symptoms and struggles in
school. Id. at 246-47.
Ramsay then sought extra testing time on the
USMLE. Dkt. 24 at 49-63. NBME determined, after seeking review of her documentation from an
independent outside expert, that Ramsay had not
shown a substantial limitation as compared to
most people, and denied her request for extra time.
Id. at 99-107.
Ramsay took Step 1 without accommodations
and missed passing by one point. Id. at 9-10. She
testified that she did not have time to read a third
of the questions, but her computer test records
show that she spent time on every question and

-11that her score reflected relatively poor performance on certain subjects, not a shortage of time.
Id. at 10-19; Dkt. 22 at 168, 588-95.
Instead of retaking Step 1, Ramsay sought out
the testing she “thought was needed to show that
she did have these disabilities”—this time from
Alan Lewandowski, Ph.D.—which she submitted
with a second request for accommodations. Dkt. 22
at 61-62; Dkt. 23 at 289; Dkt. 24 at 108-123. Although the new testing resulted in a “high average”
reading score and largely normal scores from “attention testing,” Dr. Lewandowski diagnosed her
with ADHD and a learning disability other than
dyslexia. Dkt. 23 at 295-99. NBME again concluded, based on the report of an independent expert,
that Ramsay was not substantially limited and
thus not entitled to extra time. Dkt. 25 at 34-45.
Ramsay then “got additional testing” from
Robert Smith, Ph.D. Dkt. 22 at 65-66; Dkt. 24 at
334. Dr. Smith testified that he has “a reputation”
among students (Dkt. 22 at 449), and advertises
himself as specializing in getting clients extra testing time on standardized tests. (Dkt. 25 at 104-05).
For $2,030, Dr. Smith offers “evaluations” to individuals seeking “documentation as part of their
application to request more time” on “high-stakes”
tests. Id.
After concluding that Ramsay’s earlier professionals, including Dr. Lewandowski (see, e.g., Dkt.
22 at 466), had misdiagnosed Ramsay (profession-

-12als to whom the panel said NBME should have deferred, App.15a-17a), Dr. Smith diagnosed her
with dyslexia based on 1st or 2nd percentile scores
on certain reading sub-tests he acknowledged are
easily manipulated (Dkt. 22 at 459-61; Dkt. 25 at
97-99), and which contain sentences like “[o]ur cat
Mimi likes to sit on the roof” (Dkt. 26 at 151). If
accurate, Ramsay’s results would reflect the reading level of a child in elementary or middle school.
Dkt. 25 at 150. Dr. Smith also diagnosed Ramsay
with ADHD based on inaccurate background information reported by Ramsay and her mother
(Dkt. 22 at 458), and Ramsay’s poor performance
on a computerized test he admitted was of little
value. Id. at 494; Dkt. 23 at 86-88; Dkt. 25 at 101.
Ramsay then submitted the Smith evaluation—which she and her lawyer helped draft (Dkt.
22 at 481)—as part of her third request for accommodations. NBME again concluded, after considering an external report from a second independent expert, that the aberrationally low subscores from the Smith evaluation were not credible,
and that Ramsay had not shown a substantial limitation compared to most people. Dkt. 25 at 149-54.
After NBME denied her reconsideration request
(id. at 175), Ramsay sued NBME.
C.

Proceedings Below

1. The district court granted Ramsay’s motion
for a mandatory preliminary injunction and ordered NBME to provide double testing time—relief

-13that would otherwise be warranted only if she prevailed on the merits—on all three Steps of the
USMLE (one of which she would not take for at
least two years). Dkt. 21 at 68-69; App.79a.
The district court did not find that Ramsay is
“substantially limit[ed] … as compared to most
people in the general population.” 28 C.F.R.
§ 36.105(d)(1)(v). Instead, the district court conceded that, “in comparison to the average individual in the general population, [Ramsay] appears to
have been and continues to be quite successful in
her endeavors.” App.60a-61a. The district court
also acknowledged that the diagnostic test results
relied upon by Dr. Smith “are not supported by—
and are often inconsistent with—other important
evidence, including her performance on real-world
timed tests that required significant amounts of
reading.” App.72a; see also App.33a (referring to
Ramsay’s “overall strong academic performance
throughout her educational career and on the earlier standardized ACT and MCAT”).
Yet the district court did not consider that objective, real-world evidence, finding itself “constrained” to defer to Dr. Smith based on “provisions of the ADA and the guidance and directives
set forth in the implementing regulations.”
App.73a. The court noted that, although “eminently qualified,” neither of NBME’s independent experts “evaluated or even met [Ramsay],” and both
“focused primarily on [her] record of academic [and
standardized testing] performance” and “the pau-

-14city of documentation of disability in her primary
and secondary school years.” Id. Because NBME
and its experts “analyze[d] the results of [Dr.
Smith’s] various tests themselves,” they had, in
the district court’s view, committed “blatant error.”
Id. at 73a-74a.
2. The Third Circuit affirmed in a precedential
opinion. As a threshold matter, the Third Circuit
“inferr[ed]” the critical substantial-limitation determination—recognizing that the district court
never made one. App.13a & n.9.
The Third Circuit then issued several sweeping interpretations of the ADA and its implementing regulations. First, despite the substantiallimitation inquiry’s inherent focus on a person’s
ability to perform the major life activities at issue
(compared to the general population), the Third
Circuit ruled that NBME’s “reliance on Ramsay’s
academic achievement was contrary to the regulations.” App.17a. Second, the Third Circuit held
that NBME and its external experts “contradicted
applicable regulations by … substituting their own
opinions for those of experts who met with Ramsay.” App.7a. And third, the Third Circuit concluded that NBME had, through these purported errors, “engaged in too demanding an analysis of
whether Ramsay had a disability” and “plac[ed]
too demanding a burden on Ramsay.” App.7a, 15a.
The court thus ignored that it was Ramsay’s burden to prove that she is disabled under the ADA
and entitled to double the testing time received by

-15other examinees. Nor did it adequately consider
that a mandatory preliminary injunction is “an extraordinary remedy that may only be awarded upon a clear showing that the plaintiff is entitled to
such relief” with respect to all four preliminaryinjunction factors. Winter v. Nat. Res. Def. Council,
555 U.S. 7, 22 (2008).
REASONS FOR GRANTING THE PETITION
Tens of thousands of individuals seek extra
testing time and other accommodations on highstakes exams every year—most because of need,
but some to obtain an unwarranted advantage or
because of an incorrect understanding of what it
means to be legally “disabled.” The Third Circuit’s
precedential opinion effectively guts the ADA’s
“substantial-limitation” requirement, replacing it
with an approach that compels courts and testing
companies to (1) disregard an individual’s history
of successfully performing the major life activities
at issue without accommodations if contradicted
by diagnostic test results, and (2) defer to the opinions of an applicant’s hired professionals, even if
flawed (and, as here, prepared to get accommodations and edited by the applicant and her lawyer),
simply because they are based on an in-person
evaluation.
That interpretation of the ADA cannot be
squared with the law of other circuits or this Court.
It will also inevitably—and perversely—force testing companies (and other regulated entities, such

-16as colleges and universities) to grant accommodations to many non-disabled students, seriously undermining the integrity of the exam in question,
basic principles of fairness in education and professional advancement, and the equal opportunity
goals underlying the ADA. Every year, thousands
of ADA cases are filed in federal courts, many involving the threshold question of whether plaintiff
is disabled under the ADA, but only a relative
handful work their way to appellate courts. This
Court’s review is warranted to correct the Third
Circuit’s improper dilution of the ADA’s “substantial-limitation” requirement and to restore consistency and clarity to a regularly encountered
standard of exceptional importance.
I.

The Third Circuit’s interpretation of
the “substantial-limitation” standard
conflicts with decisions by eight other
circuits and this Court.
A.

The ADA and “substantial
limitation”

Congress enacted the ADA “to remedy widespread discrimination against disabled individuals,” PGA Tour, Inc. v. Martin, 532 U.S. 661, 674
(2001), and “to provide clear, strong, consistent,
enforceable standards” addressing that discrimination, 42 U.S.C. § 12101(b)(2). The ADA bars discrimination against disabled individuals “in major
areas of public life,” including employment (Title I),

-17public services (Title II), and public accommodations and testing (Title III). PGA, 532 U.S. at 675.
This appeal concerns a provision in Title III
that requires testing entities to offer their exams
“in a place and manner accessible to persons with
disabilities.” 42 U.S.C. § 12189.
Because NBME does not dispute that it must
provide accommodations on the USMLE, including
extra time, to individuals with demonstrated disabilities, “the only question … is whether [Ramsay]
is disabled within the meaning of the ADA,” i.e.,
substantially limited in a major life activity. Gonzales v. Nat’l Bd. of Med. Exam’rs, 225 F.3d 620,
626 (6th Cir. 2000).
Under implementing Department of Justice
(“DOJ”) regulations, a “major life activity” includes
“learning, reading, concentrating, [and] thinking,”
and a “physical or mental impairment” includes
specific learning disorders and ADHD. 28 C.F.R.
§ 36.105(b)(2), (c)(1). But “[m]erely having [a physical or mental] impairment,” or being professionally diagnosed with one, “does not make one disabled
for purposes of the ADA.” Toyota Motor Mfg., Ky.,
Inc. v. Williams, 534 U.S. 184, 195 (2002). Rather,
the impairment must “substantially limit[]” the
person’s ability to perform the relevant major life
activity, “as compared most people in the general
population.” 28 C.F.R. § 36.105(d)(1)(v); see 42
U.S.C. § 12102(1)(A).

-18When it enacted the ADA Amendments Act
(“ADAAA”) in 2008, Congress rejected this Court’s
interpretation of “substantial limitation” in Toyota
as “requir[ing] a greater degree of limitation than
was intended by Congress.” Pub. L. No. 110-325
§ 2(a)(7), 122 Stat. 3553 (2008). But Congress retained the “substantial-limitation” requirement
and the core principle that “not every impairment
will
constitute
a
disability.”
28
C.F.R.
§ 36.105(d)(1)(v). The substantial-limitation requirement “serv[es] to focus the statute on the
class of persons Congress aimed to protect—those
who, by virtue of their disability, may experience
discrimination impairing their ‘right to fully participate in all aspects of society.’” B.C. v. Mount
Vernon Sch. Dist., 837 F.3d 152, 160-61 (2d Cir.
2016) (quoting 42 U.S.C. § 12101(a)(1)).
Relative to “most people” means to a greater
degree than the majority of people. See Mancini v.
City of Providence ex rel. Lombardi, 909 F.3d 32,
42 (1st Cir. 2018).2 Thus, in assessing substantial
limitation, the point of comparison is not highperforming groups—future doctors or college

See also Doherty v. Nat’l Bd. of Med. Exam’rs, 791 F.
App’x 462, 464 (5th Cir. 2019) (vacating preliminary injunction granting extra time on the USMLE because the district
court “did not compare [plaintiff’s] reading ability to the general population”); Bercovitch v. Baldwin Sch., Inc., 133 F.3d
141, 156 (1st Cir. 1998) (“Impairment is to be measured in
relation to ... what the average person does.”).
2

-19graduates, or a person’s innate potential—but
members of the general population:
[A]ny measure of substantial limitation
that might change based on a plaintiff’s
particular educational environment—e.g.,
a comparison of “medical students to
their fellow students”—would make disabled status vary with a plaintiff’s current career choices, and would fail to
achieve the ADA’s additional purpose of
providing “clear, strong, consistent, and
enforceable standards” to address discrimination.
Singh v. George Wash. Univ. Sch. of Med. &
Health Scis., 508 F.3d 1097, 1103 (D.C. Cir. 2007)
(Williams, J.) (citations omitted); see Ristrom v.
Asbestos Workers Local 34 Joint Apprentice Comm.,
370 F.3d 763, 770 (8th Cir. 2004) (“It can be a
harsh reality for an individual to discover he is
unable to accomplish that which he hoped to accomplish. Individuals possess varying levels of academic potential.”).3
3 See also Michael Gordon et al., The LD Label for Relatively Well-Functioning Students: A Critical Analysis, 32 J. of
Learning Disabilities 485, 488 (1999) (“Diagnosticians are
now routinely identifying learning disabilities in postsecondary students who never encountered meaningful impairments in high school or, in many cases, even college. … [B]y
this logic, of course, human nature is a disability waiting to
happen [and] all of us are potentially disabled if we pursue
educational options that eventually outstrip our particular

-20B.

The Third Circuit effectively
eliminated the “substantiallimitation” requirement.

The Third Circuit held that courts and covered
entities (1) may not rely upon real-world evidence
of academic performance in determining whether a
person with a diagnosed learning disorder or
ADHD is substantially limited compared to most
people, and (2) must defer to the opinions of an
applicant’s professional if based on an in-person
evaluation. To do otherwise, the Third Circuit concluded, would impose too demanding a burden on
the individual seeking to prove a disability.
The Third Circuit’s sweeping (and incorrect)
interpretations of the ADA and its implementing
regulations cannot be squared with case law from
this Court and other circuits.
1.

The Third Circuit’s
treatment of real-world
evidence conflicts with
eight other circuits.

1. The Third Circuit broadly stated that “reliance on … academic achievement [is] contrary to
the regulations.” App.17a. On that basis, the Third
Circuit held that the district court had “reasonably
discounted” Ramsay’s substantial “academic accomplishments” achieved over two decades, witharray of abilities.”).

-21out any accommodation. App.18a. Future claimants will read the Third Circuit as saying that just
considering objective evidence of academic performance (e.g., grades and standardized test scores)
violates the ADA.
DOJ’s regulations provide that “someone with
a learning disability may achieve a high level of
academic success but may nevertheless be substantially limited in one or more major life activities.” 28 C.F.R. § 36.105(d)(3)(iii). But just because
“Ramsay’s high academic performance does not
foreclose her from having a disability” (App.18a
(emphasis added)), does not mean that Ramsay’s
long history of academic success is irrelevant or
cannot be credited over inexplicably conflicting diagnostic test results (see App.82a-85a) without violating the ADA.4
To the contrary, such evidence is essential to
determining whether a learning disorder constitutes a “substantial limitation.” Real-world evidence of academic performance provides courts
4 The Third Circuit thought the district court “could appropriately consider and discount that [Ramsay] compensated for her very weak reading and writing abilities” because she purportedly “devot[ed] more effort to her assignments than most students.” App.11a n.7. Although NBME
does not dispute that an individual could succeed academically despite a substantial impairment, working hard is not a
mitigating measure that must be disregarded—much less (as
the Third Circuit suggested) evidence of a disability. Otherwise, any hard-working, successful individual with a diagnosed impairment would qualify as disabled.

-22and covered entities valuable, objective evidence
on which they routinely and properly rely in evaluating a claimed need for and entitlement to accommodations. As one expert examining the high
rate of learning disabilities at selective colleges
explained:
Objective evidence of normative deficits
in academic skills is a critical component
of most contemporary conceptualizations
of learning disabilities[,] … [which] interfere with the acquisition of academic
skills, limit academic achievement, and
impair academic or occupational functioning.
Weis, supra note 1, at 2, 8. Even Ramsay’s testifying expert conceded that tests like the ACT and
MCAT “provide relevant information regarding
someone’s ability to think, read and concentrate[.]”
Dkt. 22 at 476.
Unsurprisingly, then, the Third Circuit’s opinion conflicts with the decisions of eight other circuits, all of which relied on objective, real-world
evidence of academic achievement in addressing
the ADA’s substantial-limitation requirement—
oftentimes to discount the plaintiff’s inconsistent
testimony and implausible diagnostic test scores.
For example, the Sixth Circuit highlighted the
plaintiff’s academic achievement in affirming the
lower court’s denial of extra time on the USMLE:

-23In high school, Plaintiff qualified for advanced placement classes and graduated
with a grade point average of 4.3/5.0. He
had no formal accommodations for learning disabilities during high school. Plaintiff scored 1050, an average score, on the
SAT. He took the test without accommodations. … He took the MCAT twice
without accommodations. … His second
MCAT score was high enough that [his
medical school] admitted him[.]
Gonzales, 225 F.3d at 630. The plaintiff’s “testimony regarding his history of reading problems”
and his “clinical evidence” were “inconsistent with
his success on the SAT and MCAT”—both of which
“are timed, and [which] Gonzales took … without
accommodation.” Id. at 627 & n.13.5
In Bercovitch v. Baldwin School, the First Circuit concluded that the plaintiff’s school records
did not reflect a “substantial limitation” compared
to the average person. 133 F.3d 141, 156 (1st Cir.
1998). “[T]he record shows,” the First Circuit rea5 Although Gonzales and certain other cases discussed
herein were referenced in the ADAAA’s legislative history as
applying a “substantial-limitation” standard that was too
demanding, Congress did not alter the basic, commonsense
principle applied in Gonzales that courts and covered entities
may consider real-world evidence of a person’s reading and
concentration abilities, from directly analogous contexts,
when applying the substantial-limitation standard. See infra, Part I(B)(3).

-24soned, that the plaintiff “never experienced significant academic difficulties, and in fact has excelled
academically for most of his years at [school].” Id.
at 155. Based on this analysis, the court reversed a
preliminary injunction that had granted accommodations based on an ADHD diagnosis. Id. at 156.
Similarly, the Ninth Circuit held—in a lawsuit
by a medical student seeking accommodations for
a learning impairment—that the plaintiff’s “claim
to be ‘disabled’ was contradicted by his ability to
achieve academic success ... without special accommodations.” Wong v. Regents of Univ. of Cal.,
410 F.3d 1052, 1065 (9th Cir. 2005). He had, without accommodation, completed the first two years
of medical school on a normal schedule with a GPA
“slightly above a ‘B,’ and [had] passed the required
national board examination.” Id. Although the
Ninth Circuit rejected the notion “that a successful
student by definition cannot qualify as ‘disabled,’”
it stressed that “a student cannot successfully
claim to be disabled based on being substantially
limited in his ability to ‘learn’” if his ability to
learn has not, in fact, been substantially limited.
Id.; cf. Weaving v. City of Hillsboro, 763 F.3d 1106,
1112 (9th Cir. 2014) (carefully evaluating plaintiff’s job-performance history where he was diagnosed with ADHD and claimed to be substantially
limited in the major life activities of working and
getting along with others).
The D.C. Circuit also relied on objective performance evidence in holding that a medical stu-

-25dent’s learning disorder did not rise to the level of
a “substantial impairment.” Singh, 508 F.3d at
1099. Despite “Singh’s inferior performance—as
she sees it—on [certain] timed multiple-choice
tests,” the court said, she “began her medical studies after a high school and undergraduate career
that both parties describe as illustrious.” Id. Because the “comparison [is] to the general population, rather than to persons of elite ability or unusual experience,” the plaintiff was not substantially limited. Id. at 1100.
The Fourth, Eighth, Tenth, and Eleventh Circuits, as well as an earlier decision of the Third
Circuit, are in accord. See, e.g., Palotai v. Univ. of
Md., 38 F. App’x 946, 955 (4th Cir. 2002) (affirming dismissal of ADA claim based on a purported
learning disability, and emphasizing plaintiff’s
“demonstrated record of academic achievement”);
Ristrom, 370 F.3d at 769 (considering plaintiff’s
academic history in determining whether ADHD
substantially limited his ability to learn); Rhodes v.
Langston Univ., 462 F. App’x 773, 778 (10th Cir.
2011) (noting that plaintiff “was a successful student” in nursing school and that his “neuropsychological evaluation does not answer … whether his
impairment substantially limits [his] ability to
learn as a whole … compared to most people”);
Hetherington v. Wal-Mart, Inc., 511 F. App’x 909,
912 (11th Cir. 2013) (considering plaintiff’s academic history in determining whether he was substantially limited in his ability to learn); Collins v.

-26Prudential Inv. & Ret. Servs., 119 F. App’x 371,
378 (3d Cir. 2005) (“[Plaintiff’s] testimony about
her work, academic, and community involvement
contradicts her claim that her ADHD/ADD substantially limits her abilities to think, learn, remember and concentrate.”).
District courts, too, have routinely looked to
how a person has performed academically and on
other high-stakes standardized tests, without accommodations, in determining if the person is substantially limited in his or her reading, learning or
attentional abilities. See, e.g., Black v. Nat’l Bd. of
Med. Exam’rs, 281 F. Supp. 3d 1247, 1249-51
(M.D. Fla. 2017) (relying on plaintiff’s average performance on the MCAT and other standardized
tests without accommodations in holding that she
was not disabled, despite an ADHD diagnosis from
a qualified professional); Bibber v. Nat’l Bd. of Osteopathic Med. Exam’rs, No. 15-4987, 2016 WL
1404157, at *8 (E.D. Pa. Apr. 11, 2016) (individual
who scored in the 71st percentile on the GRE and
in the “average” range on the MCAT’s reading section without accommodations was not substantially limited in reading); Healy v. Nat’l Bd. of Osteopathic Med. Exam’rs, 870 F. Supp. 2d 607, 621
(S.D. Ind. 2012) (“Matthew’s above-average standardized testing scores, ACT scores, and SAT scores,
during which he received no accommodation, ...
stand as testament to his ability to read, learn,
think, and concentrate just as well, if not better,
than the general population.”).

-272. For so-called “invisible” impairments, such
as reading disabilities and ADHD, an individual’s
academic and standardized-testing record will
likely be the only real-world evidence of functional
limitations available. That objective evidence reflects an individual’s performance when motivated
to succeed. This is not true of diagnostic testing
performed by a private evaluator for the specific
purpose of securing accommodations on a highstakes exam. The record here is illustrative.
First, Ramsay’s own expert acknowledged that
the testing he administered can be manipulated—
for a reading disability, by simply reading more
slowly. Dkt. 22, at 459-60; see Allyson Harrison,
An Investigation of Methods to Detect Feigned
Reading Disabilities, Archives of Clinical Neuropsychology 89, 89-90 (2010); Benjamin Lovett,
Disability Identification & Educ. Accommodations:
Lessons from the 2019 Admissions Scandal, 49
Educ. Researcher 125, 126 (2020) (“The recent [college admissions] scandal should draw attention to
deliberate underperformance on diagnostic tests—
a phenomenon that has been documented in adolescents in a variety of contexts”).
As relevant to ADHD, Dr. Smith testified that
diagnoses can be manipulated by reporting attention-deficit symptoms. Dkt. 22 at 460-61. Here,
Ramsay reported suffering from 17 of 18 ADHD
symptoms to the maximum degree, struggling in
school from a young age, and receiving intensive
support—all “facts” that were accepted and relied

-28upon by her various evaluators. See, e.g., id., at
495; see also Will Lindstrom, Postsecondary ADHD
Documentation Requirements: Common Practices
in the Context of Clinical Issues, Legal Standards,
& Empirical Findings, 19 J. of Attention Disorders
655, 661 (2015) (“Standardized self-report instruments of ADHD symptoms are particularly susceptible to symptom exaggeration and intentional distortion, with up to 93% of college students being
able to successfully endorse the necessary number
and pattern of symptoms on such instruments to
meet ADHD criteria.”); B. Sullivan, Symptom Exaggeration by College Adults in Attention-Deficit
Hyperactivity Disorder & Learning Disorder Assessments, 14 Applied Neuropsychology 189 (2007);
Weis, supra note 1, at 14 (“Although these students may believe their academic abilities and
test-taking skills are impaired compared to their
intellectually talented and high-achieving classmates, there is often little evidence that they experience substantial limitations in academic skills
compared to most people.”).
Indeed, “private evaluators tend to focus on
diagnostic test scores and other information gathered during the evaluation rather than reporting
data from objective records of the student’s performance in school,” often being “satisfied with
vague descriptions of scholastic ‘difficulties’ and
‘struggles.’” Lovett, supra, at 126. Also, private
evaluators may not have “easy access” to records
that might call diagnostic test scores into question.

-29Id. at 128. Here, for example, Dr. Smith acknowledged that Ramsay had not shared some important test records with him. Dkt. 22 at 474-76.
Second, there is no incentive for an individual
seeking unwarranted accommodations to “perform
well” on diagnostic testing because, if they do,
“they’re not going to get a recommendation for accommodations.” Id. at 298; id. at 459-60 (testimony by Ramsay’s expert that “individuals sometimes exaggerate or [do] not perform to their maximum” in order “to obtain accommodations”). For
obvious reasons, that issue does not arise in the
context of grades and high-stakes standardized
test scores.
2.

Requiring deference to inperson evaluations conflicts
with this Court’s precedent.

The Third Circuit ruled that “discount[ing]
[NBME]’s experts because they … never met with
Ramsay” was “supported by the regulation[]” requiring an “individualized assessment.” App.15a17a. That deference to evaluators who personally
met with Ramsay—which was dispositive here—is
not supported by the regulations and conflicts with
precedent from this Court.
1. Setting aside that Ramsay’s hired expert
was not her “healthcare provide[r]” (App.17), there
is nothing in the statute or regulations that justifies giving extra weight to evaluators simply be-

-30cause they met personally with the individual
seeking accommodations. And this Court ruled in
Black & Decker Disability Plan v. Nord that—
absent such a requirement—there is no basis for
“accord[ing] special deference to the opinions of
treating physicians.” 538 U.S. 822, 831 (2003).
In Black & Decker, the Ninth Circuit gave
“special weight” to the “opinions of the claimant’s
treating physician” in an ERISA disability determination. Id. at 825. This Court unanimously reversed. Because nothing in the statute or regulations “suggests that plan administrators must accord special deference to the opinions of treating
physicians,” courts “have no warrant to require
administrators automatically to accord special
weight to [those] opinions.” Id. at 831, 834. Nor
can “courts impose on plan administrators a discrete burden of explanation when they credit reliable evidence that conflicts with a treating physician’s evaluation.” Id. at 834.
The Third Circuit’s reasoning here is irreconcilable with Black & Decker. Because neither the
ADA nor DOJ’s implementing regulations require
courts or covered entities to “accord special deference to the opinions of treating physicians” (much
less professionals hired solely to obtain documentation for accommodations), there is no basis for
“judicial imposition of a treating physician rule”—
particularly one that appears to bar covered entities from even considering conflicting evidence. Id.
at 831, 834 & n.3.

-31And just as ERISA regulations requiring “full
and fair” assessment did not “command plan administrators to credit the opinions of treating physicians over other evidence” (id. at 825), the DOJ’s
analogous regulation—that “determin[ing] whether an impairment substantially limits a major life
activity requires an individualized assessment”—
does not require deference either. See App.16a
(quoting 28 C.F.R. § 36.105(d)(1)(vi)). Both regulations simply require courts and covered entities to
assess the facts on a case-by-case basis specific to
each individual; they say nothing about how the
assessment should—or must—be conducted. The
district court therefore could not properly “discount[] [NBME]’s experts” simply because they
“never met with Ramsay.”6 App.15a.
“In short, whatever benefit the treating physician rule might have in social security disability
cases, it is inappropriate to apply it as a presumption in ADA cases of this type.” Bartlett v. N.Y.
The panel pointed to DOJ’s statement in a rulemaking
that “reports from experts who have personal familiarity
with the candidate should take precedence over those from
reviewers for testing agencies.” App.16a (quoting 75 Fed. Reg.
56,236, 56,297 (Sept. 15, 2010)). That statement, however,
does not have the force of law, Perez v. Mortg. Bankers Ass’n,
575 U.S. 92, 97 (2015), and DOJ itself subsequently advised
(post-ADAAA) that NBME is “not required to defer to the
conclusions or recommendations of an applicant’s supporting
professional.” Settlement Agreement Between United States
& NBME, No. 202-16-181 ¶ 17 (Feb. 11, 2011), available at
www.ada.gov/nbme.htm.
6

-32State Bd. of Law Exam’rs, 970 F. Supp. 1094, 1119
(S.D.N.Y. 1997) (Sotomayor, J.), aff’d in part, vacated in part, 156 F.3d 321 (2d Cir. 1998), cert.
granted, judgment vacated, 527 U.S. 1031 (1999),
and aff’d in part, vacated in part, 226 F.3d 69 (2d
Cir. 2000).
2. The panel’s ruling that the opinions of evaluators who conducted in-person evaluations must
be given more weight is also illogical, unworkable
in practice, and would create significant problems
for courts and covered entities seeking to apply the
ADA evenhandedly. Again, the circumstances of
Ramsay’s case demonstrate why that is so.
First, Ramsay’s expert testified that earlier
professionals whom she consulted (and whose
opinions the panel credited, App.3a-4a) failed to
diagnose her properly. See, e.g., Dkt. 22 at 466,
469. That Ramsay’s own evaluators reached inconsistent conclusions after personally evaluating
her—compare Dkt. 23 at 251 (finding by one evaluator that she reads in the top 1%), with Dkt. 25
at 91 (reading sub-test score in bottom 1% per testifying expert)—underscores the irrationality of
compelling deference to an evaluator because he or
she sees the individual in person.7
7 See also W. Mehrens, Accommodations for Candidates
with Disabilities, 63 The Bar Exam’r, No. 4, 33, 36 (1994)
(“[I]t is well known that many [learning disability diagnoses]
are done … in error.”); J. Joy, Assessment of ADHD Documentation from Candidates Requesting [ADA] Accommoda-

-33Second, Ramsay’s testifying expert was, as
noted, not her treating physician; he was someone
recommended to her lawyer as having helped other students obtain accommodations on the USMLE.
Even if a long-time treating physician might provide persuasive, unbiased evidence about an individual’s impairment, there is no reason to believe
the same is true for an evaluator who met with
someone for the sole purpose of generating a report to support an accommodation request. See
Black & Decker, 538 U.S. at 832 (“[T]he relationship between the claimant and the treating physician” might have “been of short duration,” and “a
treating physician, in a close case, may favor a
finding of ‘disabled.’”).8

tions for the Nat’l Bd. of Osteopathic Med. Exam’rs COMLEX
Exam, 12(2) J. of Attention Disorders 104, 106 (2010) (finding that only 7 out of 50 individuals who sought accommodations based on an ADHD diagnosis “provided sufficient clinical information to meet the [diagnostic] criteria”).
8 See also Lindstrom, supra, at 661 (noting that “qualified evaluators” for students seeking accommodations often
fail to “meet basic diagnostic criteria” and rely excessively on
“self-reported academic struggles (e.g., needing to reread information to understand it, difficulty finishing timed tests)
[that] are common experiences for college students and not
specific to disability”).

-343.

The ADAAA did not
eliminate the substantiallimitation requirement.

The Third Circuit believed that its truncated
substantial-limitation inquiry, described above,
was “supported by the regulations” (App.15a) and
that NBME had been “too demanding in what they
required to prove a disability” (App.17a) because
“whether an impairment substantially limits a
major life activity [under the ADAAA] should not
demand extensive analysis.” App.17a (quoting 28
C.F.R. §36.105(d)(1)(ii)).
But the notion that the substantial-limitation
inquiry “should not demand extensive analysis”—
language drawn from Congress’s statement of
purpose in the ADAAA, Pub. L. No. 110-325,
§ 2(b)(5), 122 Stat. 3553 (2008)—does not expand
the ADA’s scope beyond the “terms of [the statute].”
42 U.S.C. § 12102(4)(A); see 28 C.F.R.
§ 36.105(a)(2)(i) (broad construction “to the maximum extent permitted by the terms of the ADA”).
Congress adopted the ADAAA to overturn this
Court’s decision in an employment case that, “to be
substantially limited,” “an individual must have
an impairment that prevents or severely restricts
the individual from doing activities that are of central importance to most people’s daily lives.” Toyota, 534 U.S. at 198. The revised statute clarifies
that impairments need not rise to the level of
“prevent[ing] or severely restrict[ing] the individ-

-35ual” from doing such activities. Pub. L. 110-325,
§ 2(b)(4).9 But Congress’s rejection of a judiciallyheightened substantial-limitation requirement
does not mean that Congress jettisoned the statutory standard. It did not:
By retaining the essential elements of
the definition of disability including the
key term ‘substantially limits’ we reaffirm that not every individual with a
physical or mental impairment is covered by the ... definition of disability in
the ADA. An impairment that does not
substantially limit a major life activity is
not a disability[.] That will not change
after enactment of the ADA Amendments Act[.]
Thus, we believe that the term “substantially limits” as construed consistently
with the findings and purposes of this
legislation establishes an appropriate
functionality
test
for
determining
whether an individual has a disability.
Statement of the Managers, 154 Cong. Rec. S8840,
S8841-42 (Sept. 16, 2008) (emphasis added).
Congress also “explicitly recognized that it had
always intended that determinations of whether
9 The ADAAA also clarified that “mitigating measures”
may not be considered when determining “whether an impairment substantially limits a major life activity.” Pub. L.
110-325, § 2(b)(2).

-36an impairment substantially limits a major life activity should be based on a comparison to most
people in the population.” 81 Fed. Reg. 53,204,
53,230 (Aug. 11, 2016). Those determinations
“should not demand extensive analysis” (28 C.F.R.
§ 36.105(d)(1)(ii)) and, “in most cases, people with
impairments will not need to present scientific,
medical, or statistical evidence,” and can rely on
“other types of evidence that are less onerous to
collect,” including “school records.” 81 Fed. Reg. at
53,231 (emphasis added). School records are relevant precisely because they reflect the functional
impact of a neurodevelopmental, lifelong disorder
such as dyslexia or ADHD.
At least seven circuits have meaningfully
acknowledged that Congress retained the substantial-limitation requirement in the ADAAA, in contrast to the Third Circuit’s approach. The Second
Circuit, for example, reasoned “that the ADAAA
rejected the Supreme Court’s construction of ‘substantial[]’ as requiring a ‘severe’ or ‘significant’
limitation,” yet “Congress … retained the term
‘substantially limits’ in this amendment.” See
Mount Vernon, 837 F.3d at 161 n.10.
Other circuits agree. See, e.g., Reynolds v. Am.
Nat’l Red Cross, 701 F.3d 143, 154 n.10 (4th Cir.
2012) (while the ADAAA “requires a lesser ‘degree
of limitation’ than that imposed by Toyota,” it still
“retains the ‘substantial limitation’ language” (citation omitted)); Neely v. PSEG Tex., Ltd. P’ship,
735 F.3d 242, 245 (5th Cir. 2013) (“Although the

-37text of the ADAAA expresses Congress’s intention
to broaden the definition and coverage of the term
‘disability,’ it in no way eliminated the term from
the ADA or the need to prove a disability on a
claim of disability discrimination.”); 10 Neely v.
Benchmark Fam. Servs., 640 F. App’x 429, 434-35
(6th Cir. 2016) (“Though the [ADAAA] undoubtedly eased the burden required for plaintiffs to establish disability, we note that Congress expressly
chose to retain the ‘substantially limits’ modifier.”);
Richardson v. Chi. Trans. Auth., 926 F.3d 881, 889
(7th Cir. 2019) (“The ADAAA’s general policy
statement cannot trump [its] plain language.”);
Morriss v. BNSF Ry. Co., 817 F.3d 1104, 1111 (8th
Cir. 2016) (same); Weaving v. City of Hillsboro, 763
F.3d 1106, 1112 (9th Cir. 2014) (“The 2008
amendments to the ADA relaxed the standard for
determining whether a plaintiff is substantially
limited … but Weaving cannot satisfy even the
lower standard under current law.”); cf. Ellenberg
v. N.M. Military Inst., 572 F.3d 815, 821 (10th Cir.
2009) (rejecting interpretation of the ADA, preamendment, that negated the “substantial limitation requirement”).
The Third Circuit’s focus on broad introductory language from the ADAAA came at the expense
10 See also Doherty v. NBME, 791 F. App’x at 464 (although the ADA “provide[s] for expansive construction,”
courts “must still analyze [the ADA’s definition of disability]
logically” and with due regard for the statute’s express requirements).

-38of the statute’s clear standards—which, as discussed, permit (and, indeed, compel) consideration
of real-world evidence relative to an individual’s
alleged functional limitations and do not require
deference to the evaluator of the person claiming
to have a disability. Although the ADAAA lowered
the quantity of evidence required to establish a
“substantial limitation,” Congress did not change,
as relevant here, the categories of evidence that
may be considered. The Third Circuit’s contrary
interpretation of ADAAA conflates a diagnosis
with a disability and impermissibly “reads the …
substantial limitation requirement … out of th[e]
statute.” Mount Vernon, 837 F.3d at 159-60.
II.

The Court’s review is warranted given
the exceptional importance of this
commonly applied standard.

At its essence, the Third Circuit was asked to
decide whether courts and covered entities must
conclude that an individual is disabled if she and
her expert say so—even if the plaintiff’s testimony,
diagnostic tests, and professional evaluations cannot be squared with a lifetime of objective evidence
of academic performance using the very abilities
that are purportedly limited. In an unprecedented
expansion of the ADA and its implementing regulations, and in conflict with case law from other
circuits and this Court, the Third Circuit says the
answer is “yes.”

-39The precedential nature of the Third Circuit’s
opinion ensures its impact far beyond Ramsay,
NBME, and medical-licensing exams. Millions of
standardized tests are administered yearly—for
licensure, certification, and admission purposes
(among others).11 Every year, tens of thousands of
individuals seek accommodations on such tests—
most often extra time, and most often based on an
asserted learning disorder or ADHD.12
High-stakes testing programs routinely deny
some of these requests because their external reviewers (who have not personally evaluated the
examinee) conclude based on the written record—
and despite a diagnosed impairment—that the examinee is not disabled within the meaning of the
ADA. Often, as here, that is because results from
diagnostic assessments cannot be reconciled with a
lifetime of objective evidence reflecting high academic achievement and no meaningful functional
limitations when taking exams without accommodations. See App.82a-85a.
V. R. Johnson, Standardized Tests, Erroneous Scores,
& Tort Liability, 38 Rutgers L. J. 655, 660-61 (2007).
11

12 See, e.g., Laura A. Miller, Effects of Extended Time for
College Students with and without ADHD, 19 J. of Attention
Disorders 678 (2015); Craig S. Lerner, Accommodations for
the Learning Disabled: A Level Playing Field or Affirmative
Action for Elites, 57 Vand. L. Rev. 1043, 1044 (2004) (“From
1987 to 2000, the number of students receiving accommodations on the SATs quadrupled, and approximately 90 percent
of th[ose] test takers … were diagnosed with a ‘learning disability.’”).

-40Requiring deference to an applicant’s professional makes it virtually pointless for testing
agencies to exercise their undisputed right to review whether an accommodation request is actually warranted. That is grossly unfair to other examinees and score users and directly contrary to the
ADA’s individualized-assessment requirement.
Testing agencies were criticized in the college admission scandal for not reviewing students’ alleged
need for extra testing time more closely, but have
now been told by the Third Circuit that they
should just defer to the professionals who recommend extra time or other accommodation for students on high-stakes exams.
An untenable alternative for a testing agency
would be asking examinees to undergo an inperson examination by an independent medical
expert paid for by the testing agency when they
request accommodations, to ensure that the views
of the independent expert stand on the same footing as the views of the examinee’s professional.
That approach, however, would be challenged by
examinees as unreasonable and discriminatory.
Testing programs will inevitably be inclined
simply to grant requested accommodations, regardless of their impact on the integrity of the resulting scores or the unfairness to examinees who
test under standard conditions or with accommodations they legitimately need. 13 In other words,
13

Giving extra time to non-disabled students on a time-

-41despite a testing agency’s “duty to ensure that [its]
examination is fairly administered to all those taking it,” the Third Circuit’s opinion will induce testing programs to reconsider or eliminate the reasonable safeguards they have implemented “to ensure that individuals with bona fide disabilities
receive accommodations, and that those without
disabilities do not[.]” Powell, 364 F.3d at 88-89.

limited, standardized test is unfair. See Miller, supra note
12, at 683 (noting that “studies ... have generally shown that
all students benefit from extended time,” and that “double
time” appears to give students with a learning disability or
ADHD “an unfair advantage over their typical peers,” which
is “not what test accommodation policies hope to achieve”);
G.E. Zuriff, Extra Examination Time for Students with
Learning Disabilities: An Examination of the Maximum Potential Thesis, 13 J. Applied Measurement 99, 101, 114
(2000) (refuting “hypothes[is] that non-disabled students
would not in fact benefit from extra time on most examinations”). Unsurprisingly, then, “most students—with and
without disabilities—perceive accommodations and modifications to be helpful and desirable as they pursue advanced
degrees.” Weis, supra note 1, at 3. See also N. Leong, Beyond
Breimhorst: Appropriate Accommodation of Students with
Learning Disabilities on the SAT, 57 Stan. L. Rev. 2135,
2136 (2005) (“In an era when admission to elite colleges and
universities has never been more competitive, a puzzling
trend has emerged. Across the country, many bright and
ambitious students are anxiously competing to display their
cognitive imperfections, practically begging psychologists to
label them with dyslexia or attention deficit hyperactivity
disorder (ADHD), while their parents unhesitatingly hand
over thousands of dollars in fees to pay for such diagnoses.”).

-42Nothing in the ADA, its implementing regulations, or basic principles of fairness supports that
result. Weis, supra note 1, at 4 (“[T]he unsupported or indiscriminate provision of accommodations
can yield test scores that overpredict knowledge
and performance, give students an unfair advantage over their classmates, expend limited resources, and erode academic standards.”).
Studies show “that students requesting and
receiving a [learning disability] diagnosis are disproportionately from affluent communities.” Lerner, supra note 12, at 1108. For example, one
study found that “[c]hildren and adolescents with
[actual] learning disabilities disproportionately
come from families of lower socioeconomic status,”
but that over 54% “of the 50 top-ranked private
liberal arts colleges in the United States have
more than double the average percentage of students receiving accommodations[.]” Weis, supra
note 1, at 2 (emphasis added); id. at 3 (“Many students at selective, private colleges may lack evidence supporting their disability diagnoses and
receive accommodations that do not reflect either
objective test data or real world limitations in academic functioning”). Similarly, the California State
Auditor found that seniors at private schools were
receiving SAT accommodations at four times the
rate of their publicly educated peers, 14 and, in a
Elaine Howle, Bureau of State Audits, Standardized
Tests (2000), www.bsa.ca.gov/pdfs/reports/2000-108.pdf.
14

-43more recent investigation, the Chicago Tribune
found that in some affluent and high-performing
districts, between 17% and 20% of students received accommodations, many of whom obtained
some of the highest scores possible on the ACT.15
Paradoxically, the individuals the ADA is
meant to protect will be among those disadvantaged by the Third Circuit’s overreaching and outlier effort to make it easier to get ADA accommodations. See Gordon, supra note 3, at 489.
The untoward impact of the Third Circuit’s
opinion—which will inevitably be cited by examinees in every circuit when seeking accommodations on a high-stakes exam—does not end there.
Although this case involves the ADA provision
that applies to testing entities, 42 U.S.C. § 12189,
the definition of “disability”—and, more specifically, the “substantial-limitation” requirement of that
15 D. Rado, Many Illinois High School Students Get Special Testing Accommodations for ACT, Chi. Tribune (Apr. 29,
2012),
www.chicagotribune.com/news/ct-met-testingaccommodations-20120429-58-story.html; see also D. Belkin,
Many More Students, Especially the Affluent, Get Extra Time
to Take the SAT, Wall Street Journal (May 21, 2019)
www.wsj.com/articles/many-more-students-especially-theaffluent-get-extra-time-to-take-the-sat-11558450347
(“At
Scarsdale High School north of New York City, one in five
students is eligible for extra time or another accommodation
such as a separate room for taking the SAT or ACT college
entrance exam. At Weston High School in Connecticut, it is
one in four. At Newton North High School outside Boston,
it’s one in three.”).

-44definition—is the same under all three ADA titles.
The Third Circuit’s opinion is thus equally applicable to employers, state and local governments,
and public accommodations (e.g., educational institutions, hotels, sports facilities, and movie theatres) accused of violating Titles I, II, or III of the
ADA for failing to provide accommodations to individuals who claim to be disabled.
****
The Third Circuit’s opinion inappropriately dilutes a central and essential statutory term of the
ADA, as amended by the ADAAA. Its sweeping
ruling conflicts with case law of its sister circuits
and this Court, thereby undercutting the statute’s
“purpose of providing clear, strong, consistent, and
enforceable standards to address discrimination.”
42 U.S.C. § 12101(b)(2). In the end, the Third Circuit’s opinion is a win for students who are not
disabled within the meaning of the ADA but who
have the means to gain an unwarranted advantage in their education or professions at the
expense of their peers, including the truly disabled.

-45CONCLUSION
The Court should grant certiorari.
RESPECTFULLY SUBMITTED, this 28th day of
January, 2021
Robert A. Burgoyne
Caroline Mew
PERKINS COIE LLP
700 Thirteenth Street N.W.
Suite 600
Washington, DC
20005-3960
202.654.1744

Eric B. Wolff,
Counsel of Record
Alison R. Caditz
PERKINS COIE LLP
1201 Third Avenue
Suite 4900
Seattle, WA 98101-3099
206.359.8000
EWolff@perkinscoie.com

Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT, FILED JULY 31, 2020
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1058
JESSICA RAMSAY,
v.
NATIONAL BOARD OF MEDICAL EXAMINERS,
Appellant.
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-19-cv-02002)
District Judge: Honorable J. Curtis Joyner
July 1, 2020, Argued;
July 31, 2020, Filed
Before: GREENAWAY, JR., SHWARTZ,
and RENDELL, Circuit Judges.
Opinion
SHWARTZ, Circuit Judge.

2a
Appendix A
Medical student Jessica Ramsay sought testing
accommodations for dyslexia and attention deficit
hyperactivity disorder (“ADHD”) from the National Board
of Medical Examiners (“the Board”). The Board denied
her requests, and she sued under the Americans with
Disabilities Act (“ADA”). The District Court granted a
preliminary injunction, requiring the Board to provide
her accommodations. We will affirm.
I
A
The Board administers the United States Medical
Licensing Examination (“USMLE”). The USMLE has
three components, or “Steps,” that medical students
must pass before they can apply for a medical license.
Step 1 is a computer-based, multiple choice exam that
assesses a student’s grasp of scientific concepts. Students
typically take Step 1 before their final year of medical
school. Step 2 has two parts: Clinical Knowledge (“CK”),
a computer-based, multiple choice exam that assesses
medical knowledge and clinical science, and Clinical Skills
(“CS”) that assesses students in a clinical setting. Step 2
must be taken before graduation. Step 3 is a computerbased exam that assesses the application of medical and
scientific knowledge to the practice of medicine. Step 3
must be taken before applying for a medical license.
Ramsay, while a third-year medical student at
Western Michigan University (“WMed”), requested an
accommodation, namely extra testing time, for Step 1

3a
Appendix A
and Step 2 CK. The basis of her request was that she had
ADHD and dyslexia. She submitted to the Board:
• a diagnosis of ADHD and probable dyslexia by her
family physician, Dr. Alan Smiy, made when she
was an undergraduate;
• records of accommodations provided by her
undergraduate institution and by WMed;
• evaluations from Charles Livingston, a licensed
social worker, who administered several assessments
that supported a diagnosis of ADHD and a likelihood
of dyslexia and showed, in his opinion, that Ramsay
had “relatively low attention and concentration and
very low processing speed,” although “[h]er native
intelligence has been some compensation for low
abilities in the identified areas”;
• her MCAT scores, taken without accommodations,
placing her in the 67th and 31st percentiles for
verbal reasoning and writing, respectively;
• academic records and other standardized test
scores, taken without accommodations, showing a
high level of achievement; and
• a personal statement attesting that she struggled
from an early age with maintaining concentration,
reading, and w riting, but that she achieved
academic success through mitigating strategies,
informal accommodations from teachers, and

4a
Appendix A
accommodations from her undergraduate and
medical schools.
The Board provided Ramsay’s materials to an outside
reviewer, Dr. Stephen Zecker, who opined that Ramsay
was not “substantially limited in functioning in a manner
that warrants accommodations.” App. 766. The Board
also reviewed Ramsay’s documentation and, noting
her record of achievement without accommodations,
concluded that the documents did not “demonstrate a
record of chronic and pervasive problems with inattention,
impulsivity, behavioral regulation, or distractibility that
has substantially impaired [her] functioning during
[her] development or currently.” App. 1126. Based on
Dr. Zecker’s recommendation and the Board’s review of
Ramsay’s materials, the Board denied her request.
T h e r e a f t e r, R a m s ay t o o k S t e p 1 w i t h o u t
accommodations in her third year, but she failed by one
point. Because WMed requires students to pass Step 1
by the beginning of their fourth year, she took a leave of
absence.
Ramsay renewed her request for extra testing
time and submitted an evaluation and test data
from neuropsychologist Dr. Alan Lewandowski. Dr.
Lewandowski met with Ramsay, conducted assessments,
found that she had abnormal functionalities in thinking,
processing speed, attention, and sequencing, and concluded
that she had ADHD. Ramsay also submitted a letter
from her treating psychiatrist, Dr. Bruce Ruekberg, who
concurred with Mr. Livingston’s and Dr. Lewandowski’s

5a
Appendix A
assessments, stating that she had abnormal scanning and
processing speed that impaired her reading and written
expression. The Board denied her request for extra testing
time, again concluding that she had not shown she was
substantially limited in any functions as compared to
most people.1
Ramsay sought reconsideration of the Board’s denial.
As additional support, she provided an evaluation by Dr.
Robert D. Smith, a psychologist and neuropsychologist.
Dr. Smith met with Ramsay, reviewed her records,
and performed similar assessments. He reported that
the assessments revealed that she had abnormally low
abilities in processing information, writing, and reading,
indicating dyslexia and ADHD. Among other things, his
testing revealed that Ramsay, as compared to others in
her age group, was in the fourth percentile in reading
comprehension and fluency, second percentile in word
reading speed, and first percentile in oral reading fluency.
The Board provided Ramsay’s file to outside expert
Dr. Benjamin Lovett, who concluded that Ramsay did not
show poor academic skills or impairments compared to
the general population and thus lacked a condition that
would warrant accommodations. Based on Dr. Lovett’s
recommendation and further review, the Board denied
Ramsay’s request for reconsideration.

1. The Board granted Ramsay’s requests for additional break
time and a separate testing room as accommodations for migraines
and deep vein thrombosis.

6a
Appendix A
B
Ramsay sued the Board in May 2019, alleging that it
had violated the ADA. 2 The next month, WMed informed
Ramsay that it could extend her leave only until March
2020, “with the expectation that [she] will sit for the
USMLE Step 1 exam in a manner that allows [her] to
return to the WMed curriculum by that date.” App. 1520.
WMed informed Ramsay that if she did not pass Step 1
and return by March 2020, she would be dismissed or
could voluntarily withdraw, but readmission would not
be guaranteed. 3 Ramsay accepted WMed’s conditional
extension of leave.
Because Ramsay had to pass Step 1 to avoid dismissal,
she sought a preliminary injunction to require the Board to
grant her accommodations. The District Court held a threeday evidentiary hearing featuring testimony from, among
others, Ramsay, Dr. Smith, Dr. Zecker, and Dr. Lovett.
For the reasons explained in its careful and thorough
opinion, the District Court granted Ramsay a preliminary
injunction and required the Board to provide Ramsay
with double the testing time on Step 1, Step 2 CK, any
2. Ramsay also alleged a Rehabilitation Act claim, 29 U.S.C.
§ 794, but the parties agree that only her ADA claim is relevant to
the preliminary injunction.
3. The Board contends that Ramsay only had to take, not pass,
Step 1 to remain enrolled in school. Given that WMed students must
pass Step 1 by the beginning of their fourth year, however, Ramsay
could not continue into her fourth year at WMed without passing
Step 1.

7a
Appendix A
written or reading portions of Step 2 CS, and Step 3.
Ramsay v. Nat’l Bd. of Med. Exam’rs, No. 19-CV-2002,
2019 U.S. Dist. LEXIS 222782, 2019 WL 7372508 (E.D.
Pa. Dec. 31, 2019). The Court found that all the experts
were qualified, but that the testimony and reports of the
experts who met with Ramsay were more persuasive. 2019
U.S. Dist. LEXIS 222782, [WL] at *17. Those experts
stated that their assessments and evaluations all showed
that Ramsay had low reading, writing, and processing
abilities. 2019 U.S. Dist. LEXIS 222782, [WL] at *15-16.
The Court also found that the Board’s experts’ analyses
contradicted applicable regulations by focusing too much
on Ramsay’s academic achievements, substituting their
own opinions for those of experts who met with Ramsay,
and placing too demanding a burden on Ramsay. 2019
U.S. Dist. LEXIS 222782, [WL] at *17-18. Based on this
evidence and the governing law, the Court found that
Ramsay had a disability under the ADA. 2019 U.S. Dist.
LEXIS 222782, [WL] at *18.
The Court also found that: (1) Ramsay established
irreparable harm because she would likely be forced to
withdraw from WMed if she could not take Step 1 with
accommodations and pass, (2) the balance of equities
tipped in her favor because granting her accommodations
would not undermine the Board’s interests in fair and
accurate testing, and (3) it was in the public interest for
the ADA to be followed and to increase the number of
physicians. 2019 U.S. Dist. LEXIS 222782, [WL] at *1819. The Board appeals.4
4. After the Board filed its appeal, Ramsay passed Step 1 with
accommodations. This appeal, however, is not moot because (1) the
District Court’s injunction extends to Steps 2 and 3, which Ramsay

8a
Appendix A
II5
In issuing a preliminary injunction, a district court
considers four factors:
(1) the likelihood that the plaintiff will prevail
on the merits at final hearing; (2) the extent to
which the plaintiff is being irreparably harmed
by the conduct complained of; (3) the extent
to which the defendant will suffer irreparable
harm if the preliminary injunction is issued;
and (4) [that] the public interest [weighs in favor
of granting the injunction].
Greater Phila . Chamber of Commerce v. City of
Philadelphia, 949 F.3d 116, 133 (3d Cir. 2020) (alterations
has not yet taken, and (2) as to Step 1, if we vacated the injunction,
the Board could invalidate her score or prevent her from submitting
the score to residency programs. See Chafin v. Chafin, 568 U.S. 165,
172, 133 S. Ct. 1017, 185 L. Ed. 2d 1 (2013) (explaining that a case
is not moot if the parties “‘continue to have a personal stake’ in the
ultimate disposition of the lawsuit” (quoting Lewis v. Continental
Bank Corp., 494 U.S. 472, 478, 110 S. Ct. 1249, 108 L. Ed. 2d 400
(1990))).

5. The District Court had jurisdiction under 28 U.S.C. § 1331.
We have jurisdiction under 28 U.S.C. § 1292(a)(1). “We employ a
tripartite standard of review for . . . preliminary injunctions. We
review the District Court’s findings of fact for clear error. Legal
conclusions are assessed de novo. The ultimate decision to grant or
deny the injunction is reviewed for abuse of discretion.” Ass’n of N.J.
Rifle & Pistol Clubs, Inc. v. Att’y Gen. N.J., 910 F.3d 106, 114 (3d
Cir. 2018) (omission in original) (quoting K.A. ex rel. Ayers v. Pocono
Mountain Sch. Dist., 710 F.3d 99, 105 (3d Cir. 2013)).

9a
Appendix A
in original) (quoting Am. Tel. & Tel. Co. v. Winback &
Conserve Program, Inc., 42 F.3d 1421, 1427 (3d Cir. 1994)).
A
We first address Ramsay’s likelihood of success on
the merits of her ADA claim. “On this factor, a sufficient
degree of success for a strong showing exists if there is
a reasonable chance or probability, of winning” on her
ADA claim. Ass’n of N.J. Rifle & Pistol Clubs, Inc. v.
Att’y Gen. N.J., 910 F.3d 106, 115 (3d Cir. 2018) (internal
quotation marks and citation omitted). The ADA provides
in relevant part:
Any person that offers examinations . . . related
to applications, licensing, certification, or
credentialing for . . . professional . . . purposes
shall offer such examinations . . . in a place and
manner accessible to persons with disabilities
or offer alternative accessible arrangements
for such individuals.
42 U.S.C. § 12189. The issue here is whether Ramsay
has a “disability” that entitles her to an accommodation.
Ramsay, 2019 U.S. Dist. LEXIS 222782, 2019 WL
7372508, at *8.
The ADA defines “disability” in relevant part as “a
physical or mental impairment that substantially limits
one or more major life activities of such individual.” 42
U.S.C. § 12102(1)(A). We construe the term “disability”
broadly. Id. § 12102(4)(A). As to the term “impairment,”

10a
Appendix A
the applicable Department of Justice (“DOJ”) regulations6
provide that the term “physical or mental impairment”
includes ADHD and “dyslexia and other specific learning
disabilities.” 28 C.F.R. § 36.105(b)(2). As to “life activities,”
the ADA provides that “major life activities include . . .
reading, concentrating, thinking, communicating, and
working.” 42 U.S.C. § 12102(2)(A). Finally, the regulations
explain that “[a]n impairment is a disability . . . if
it substantially limits the ability of an individual to
perform a major life activity as compared to most people
in the general population.” 28 C.F.R. § 36.105(d)(1)(v).
Accordingly, “‘[n]ot every impairment will constitute a
disability . . . ,’ but [an impairment] will meet the definition
[of disability] if ‘it substantially limits the ability of an
individual to perform a major life activity as compared to
most people in the general population.’” J.D. by Doherty
v. Colonial Williamsburg Found., 925 F.3d 663, 670 (4th
Cir. 2019) (quoting 28 C.F.R. § 36.105(d)(1)(v)).
1
The Board argues that the District Court did not
determine that Ramsay is substantially limited in
6. In 42 U.S.C. §§ 12186(b) and 12205a, the ADA authorizes
DOJ to issue regulations implementing the public accommodations
provisions of the ADA. Such regulations have “the force and effect
of law.” See PDR Network, LLC v. Carlton & Harris Chiropractic,
Inc., 139 S. Ct. 2051, 2055, 204 L. Ed. 2d 433 (2019) (quoting Perez
v. Mortg. Bankers Ass’n, 575 U.S. 92, 97, 135 S. Ct. 1199, 191 L. Ed.
2d 186 (2015)); accord Pa. Dep’t of Human Servs. v. United States,
897 F.3d 497, 505 (3d Cir. 2018). The regulations “are entitled to
substantial deference.” Helen L. v. DiDario, 46 F.3d 325, 331 (3d
Cir. 1995).

11a
Appendix A
comparison to most people in the general population.7 We
first address the concept of “most people in the general
population” in the learning disability context. In general,
[t]he comparison to most people in the general
population . . . mean[s] a compar ison to
other people in the general population, not a
comparison to those similarly situated. For
example, the ability of an individual with
an amputated limb to perform a major life
activity is compared to other people in the
general population, not to other amputees.
This does not mean that disability cannot be
shown where an impairment, such as a learning
disability, is clinically diagnosed based in part
on a disparity between an individual’s aptitude
and that individual’s actual versus expected
achievement, taking into account the person’s
chronological age, measured intelligence,
and age-appropriate education. Individuals
diagnosed with dyslexia or other learning
disabilities will typically be substantially
7. Relatedly, the Board argues that the District Court
improperly considered Ramsay’s work ethic and study habits, which
the Board argues are improper considerations because “working
hard does not show that [Ramsay] is substantially impaired.”
Appellant’s Br. at 47. However, “[t]he determination of whether an
impairment substantially limits a major life activity shall be made
without regard to the ameliorative effects of mitigating measures.” 28
C.F.R. § 36.105(d)(1)(viii). Accordingly, in deciding whether Ramsay
was disabled, the Court could appropriately consider and discount
that she compensated for her very weak reading and writing abilities
by devoting more effort to her assignments than most students.

12a
Appendix A
limited in performing activities such as
learning, reading, and thinking when compared
to most people in the general population . . . .
Regulations to Implement the Equal Employment
Provisions of the Americans with Disabilities Act, as
Amended, 76 Fed. Reg. 16,978, 17,009 (Mar. 25, 2011)
(explanation by the Equal Employment Opportunity
Commission (“EEOC”)); see Amendment of Americans
with Disabilities Act Title II and Title III Regulations to
Implement ADA Amendments Act of 2008, 81 Fed. Reg.
53,204, 53,230 (Aug. 11, 2016) (DOJ “concur[ring] with”
EEOC’s “view”). 8 Thus, a clinical diagnosis of a learning
disability is typically based upon a comparison between
the individual and others in the general population who
are of similar age and have received age-appropriate
education.
Here, the District Court relied on such diagnostic
information to conclude that Ramsay had ADHD and
dyslexia that caused her to read and write with more
difficulty than most people. For example, Dr. Smith’s
and Dr. Lewandowski’s diagnostic assessments showed
8. “[T]he preamble to a regulation may be used as an aid in
determining the meaning of a regulation.” Conn. Gen. Life Ins. Co.
v. Comm’r, 177 F.3d 136, 145 (3d Cir. 1999) (quoting Pennsylvania
Dep’t of Pub. Welfare v. United States HHS, 101 F.3d 939, 944 n.4
(3d Cir. 1996)); see also Helen Mining Co. v. Dir. OWCP, 650 F.3d
248, 257 (3d Cir. 2011) (holding that an administrative law judge’s
“reference to the preamble to the regulations . . . unquestionably
supports the reasonableness of his decision to assign less weight to
[an expert’s] opinion”).

13a
Appendix A
that Ramsay had abnormal functionalities in thinking,
processing speed, attention, and sequencing. Indeed,
some of the reading tests Dr. Smith administered placed
Ramsay in less than the fifth percentile as compared
to individuals her age. This is exactly the type of data
DOJ contemplates as showing a learning disability that
substantially limits an individual as compared to others
in the general population. Equal Employment Provisions,
76 Fed. Reg. at 17,009; Title II and Title III Regulations,
81 Fed. Reg. at 53,230. Further, Ramsay explained in her
personal statement that she had struggled with reading
and writing tasks in comparison to her classmates
since elementary school. Thus, the Court’s finding that
Ramsay’s ADHD and dyslexia constituted a disability was
based on evidence that these conditions substantially limit
her reading and writing in comparison to most people.
See Pryer v. C.O. 3 Slavic, 251 F.3d 448, 453 n.4 (3d Cir.
2001) (inferring the district court’s reasoning where it
was “otherwise apparent from the record”).9
Moreover, t he reg u lat ions prov ide t hat t he
“substantially limits” inquiry “should not demand
extensive analysis,” 28 C.F.R. § 36.105(d)(1)(ii), and that
“[t]he comparison of an individual’s performance of a
major life activity to the performance of the same major
9. We further disagree with the Board’s contention that the
District Court never found that Ramsay was substantially limited
as compared to the general population because when the Court
concluded that Ramsay was disabled, it defined disability as a
substantial limitation as compared to most people in the general
population. Ramsay, 2019 U.S. Dist. LEXIS 222782, 2019 WL
7372508, at *7-8.

14a
Appendix A
life activity by most people in the general population
usually will not require scientific, medical, or statistical
evidence,” id. § 36.105(d)(1)(vii). Accordingly, the District
Court›s reliance on evidence that Ramsay›s reading,
processing, and writing skills were abnormally low by
multiple measures provided a sufficient comparison of her
abilities to those of the general population to support the
finding of disability.10
2
Next, the Board argues that the District Court
erred by giving “considerable weight” to Ramsay’s
past accommodations when determining that she has
a disability. Appellant’s Br. at 45 (quoting 28 C.F.R.
§ 36.309(b)(1)(v)). According to the Board, a court should
consider past accommodations only after finding the
individual is disabled. This argument fails.
The regulation defining disability, § 36.105, does
not bar consideration of past accommodations. Indeed,
§ 36.309(b)(1)(v) provides that “[w]hen considering
10. The Board relies on Bibber v. National Board of Osteopathic
Medical Examiner, Inc., Civ. A. No. 15-4987, 2016 U.S. Dist.
LEXIS 48181, 2016 WL 1404157 (E.D. Pa. Apr. 11, 2016), but it is
distinguishable. There, the district court held that the plaintiff was
not disabled because “a mountain of evidence,” including some of
the same diagnostic assessments that Ramsay took, “suggest[ed]
that Bibber’s reading and processing abilities [were] average when
compared to the general population.” 2016 U.S. Dist. LEXIS 48181,
[WL] at *8. In contrast, Ramsay’s scores on the same assessments
were lower, and she explained at the hearing how she reads in a
manner that is different from the average person.

15a
Appendix A
requests for . . . accommodations . . . the [testing] entity
gives considerable weight to documentation of past . . .
accommodations.” Moreover, as the preamble to the
applicable regulations states, “a recent history of past
accommodations is critical to an understanding of the
applicant’s disability and the appropriateness of testing
accommodations.” Nondiscrimination on the Basis of
Disability by Public Accommodations and in Commercial
Facilities, 75 Fed. Reg. 56,236, 56,298 (Sept. 15, 2010) (to
be codified at 28 C.F.R. pt. 36). Thus, the District Court
did not err in considering Ramsay’s past accommodations.
3
The Board also argues that the District Court wrongly
believed that the statute and regulations compelled it to
defer to experts who met with and tested Ramsay. While
the Court viewed Ramsay’s experts more favorably and
found the Board’s experts unpersuasive, there is no
indication that the Court believed that it was compelled to
defer to Ramsay’s experts. Rather, the Court discounted
the Board’s experts because they (1) never met with
Ramsay, (2) engaged in too demanding an analysis of
whether Ramsay had a disability, and (3) focused too much
on Ramsay’s academic achievements. Ramsay, 2019 U.S.
Dist. LEXIS 222782, 2019 WL 7372508, at *17-18. The
Court’s reasoning was within its discretion and supported
by the regulations.
First, it is within the trial judge’s discretion to credit a
physician with firsthand observations of a patient over one
who only reviewed the patient’s records. See United States

16a
Appendix A
v. Olhovsky, 562 F.3d 530, 548-49 (3d Cir. 2009). Such
a professional has the benefit of seeing how the patient
actually acts and speaks and provides a perspective not
limited to the cold record. This principle is not unlike the
deference an appellate court gives to a trial court who
physically sees a witness. Cooper v. Harris, 137 S. Ct.
1455, 1474, 197 L. Ed. 2d 837 (2017). This is why we rarely
second-guess a district court’s weighing of evidence, see,
e.g., United States v. Turner, 718 F.3d 226, 231 (3d Cir.
2013), and why it makes sense for the District Court to
credit the professionals who personally met with Ramsay.
Second, the reg ulations mandate that “[t]he
determination of whether an impairment substantially
limits a major life activity requires an individualized
assessment.” 28 C.F.R. § 36.105(d)(1)(vi). Such assessments
benefit from the reports of professionals who know
or have personally examined the individual. Because
such examinations allow the professional to evaluate
the individual’s behavior, effort, and candor, DOJ
understandably has stated that “[r]eports from experts
who have personal familiarity with the candidate should
take precedence over those from . . . reviewers for testing
agencies, who have never personally met the candidate
or conducted the requisite assessments for diagnosis and
treatment.” Nondiscrimination on the Basis of Disability,
75 Fed. Reg. at 56,297. As a result, DOJ has directed that
testing entities “shall generally accept” “documentation
provided by a qualified professional who has made an
individualized assessment of an applicant that supports
the need for the modification, accommodation, or aid
requested . . . and provide the accommodation.” Id. Thus,

17a
Appendix A
the Court’s decision to weigh Ramsay’s experts more
favorably than those of the Board was consistent with
DOJ regulations.11
Third, “the threshold issue of whether an impairment
substantially limits a major life activity should not demand
extensive analysis.” 28 C.F.R. § 36.105(d)(1)(ii). The
Court could reasonably have concluded that the Board’s
experts were too demanding in what they required to
prove a disability, for example, by demanding evidence
of a lifetime of academic struggles, and “substituting
their own opinions” for those of Ramsay’s healthcare
providers. Ramsay, 2019 U.S. Dist. LEXIS 222782,
2019 WL 7372508, at *17. In fact, the Board’s reliance
on Ramsay’s academic achievement was contrary to the
regulations that explain that “someone with a learning
disability may achieve a high level of academic success, but
may nevertheless be substantially limited in one or more
major life activities, including, but not limited to, reading,
writing, speaking, or learning because of the additional
11. The Board argues before us that a 2011 settlement
agreement between it and DOJ eliminates the preference to be
given to professionals who personally examined the individual.
The Board did not make this argument before the District Court,
so we do not fault the Court for not considering it. In any event,
the Board is wrong. First, the settlement addresses the Board’s
obligations and not a court’s considerations under the regulations
when deciding whether an individual has a disability. Second, while
the agreement states that the Board need not defer to the conclusions
of such professionals, that does not mean it is relieved of showing in
litigation why those professionals are unworthy of credence. Third,
even if the agreement had any bearing on the regulations, which it
does not, it expired in 2014.

18a
Appendix A
time or effort he or she must spend to read, write, speak,
or learn compared to most people.” 28 C.F.R. § 36.105(d)
(3)(iii).12 Because Ramsay’s high academic performance
does not foreclose her from having a disability, the Court
reasonably discounted the Board’s experts’ opinions, which
focused mostly on Ramsay’s academic accomplishments
and ignored evidence of her limitations. Ramsay, 2019
U.S. Dist. LEXIS 222782, 2019 WL 7372508, at *18.
In sum, nothing in the District Court’s discussion
indicates that it held that the statute and regulations
“compel” deference to Ramsay’s experts. Rather, the
Court found that Ramsay’s experts provided facts more
probative to the relevant inquiries under the ADA, and
its decision to view these witnesses more favorably is
consistent with the regulations. Thus, we will not disturb
how the Court chose to weigh evidence.
4
The additional errors the Board identifies in the
Court’s factual findings do not amount to clear error. “A
finding of fact is clearly erroneous when it is completely
12. When discussing this proposition, the Court quoted 29
C.F.R. § 1630.2(j)(4)(iii), promulgated by the EEOC, which does not
implement the operative ADA title here. 42 U.S.C. § 12116 (providing
EEOC authority to implement the employment provisions of the
ADA). Nonetheless, DOJ has issued an identical regulation. Compare
28 C.F.R. § 36.105(d)(3)(iii), with 29 C.F.R. § 1630.2(j)(4)(iii). Thus,
there was no legal error “infecting” the Court’s weighing of experts.
Bedrosian v. United States, 912 F.3d 144, 152 (3d Cir. 2018) (quoting
U.S. Bank Nat’l Ass’n ex rel. CWCapital Asset Mgmt., LLC v. Vill.
at Lakeridge, LLC, 138 S. Ct. 960, 968 n.7, 200 L. Ed. 2d 218 (2018)).

19a
Appendix A
devoid of minimum evidentiary support displaying some
hue of credibility or bears no rational relationship to
the supportive evidentiary data.” VICI Racing, LLC
v. T-Mobile USA, Inc., 763 F.3d 273, 283 (3d Cir. 2014)
(internal quotation marks and citation omitted). We
examine the entire record to determine whether there is
evidentiary support for a finding, not just the evidence a
district court cites. See N.J. Rifle, 910 F.3d at 120 n.24.
First, the Board argues that the District Court erred
in finding that the Board’s consultants found that Dr.
Smith’s assessments were valid and credible. Contrary
to the Board’s assertion, the record supports the Court’s
finding. Both of the Board’s consultants testified that they
had no reason to doubt that the assessments were properly
administered, that the results were accurate, and that
the data could be useful, although they disagreed with
Dr. Smith’s interpretation of the results. The credibility
of evidence is different from the inferences a factfinder
can draw from that evidence, so the Court’s finding that
all experts agreed the assessments were credible was
supported by the consultants’ testimony, even if the
Board’s consultants reached different conclusions from
the test results themselves.13
13. In making this finding, the District Court misquoted one
piece of evidence, a letter from the Board. The Court stated that
the Board found Ramsay’s expert assessment to be valid. Ramsay,
2019 U.S. Dist. LEXIS 222782, 2019 WL 7372508, at *4 (quoting
App. 1512). The letter, however, was referring to Ramsay’s expert
accepting the assessments as valid. Accordingly, the letter does not
support the Court’s finding because it does not embody the Board’s
view. Nonetheless, other evidence in the record supports the finding,

20a
Appendix A
Second, the Board argues that the District Court
erred in finding that Ramsay could not finish reading and
had to guess on about a third of the questions on Step 1
because the time Ramsay spent on each question shows
that “she had time to read every question.” Appellant’s Br.
at 61 (emphasis omitted) (citing Ramsay, 2019 U.S. Dist.
LEXIS 222782, 2019 WL 7372508, at *3). The record does
not contradict the Court’s finding. The Board’s evidence
does not indicate how much time Ramsay spent reading
each question. Rather, it shows only that she spent, on
average, seventeen seconds more on the questions she
got incorrect. Further, Ramsay testified that she took
a pass through the questions before answering them,
answered the ones she felt she could, and repeated that
strategy until she was left with a few questions she could
not answer even after multiple reads. Her strategy
provides a reasonable explanation for why the time spent
on correct versus incorrect answers was similar. The
Court was free to credit Ramsay’s testimony over the
inferences that the Board argued should be drawn from
its measurements. See Cloverland-Green Spring Dairies,
Inc. v. Pa. Milk Mktg. Bd., 462 F.3d 249, 271 (3d Cir. 2006)
(“Where there are two permissible views of the evidence,
the factfinder’s choice between them cannot be clearly
erroneous.” (quoting Scully v. US WATS, Inc., 238 F.3d
497, 506 (3d Cir. 2001))).
Finally, the Board argues that the District Court
erred in finding that Ramsay had received informal
as explained above, so there is no clear error. N.J. Rifle, 910 F.3d
at 120 n.24.

21a
Appendix A
accommodations in her early school years. Ramsay
testified about, and her mother relayed to Dr. Smith
information concerning, these informal accommodations.
While the Board asserts that there is no written record of
these informal accommodations, Ramsay’s corroborated
testimony provided “minimum evidentiary support” for
the Court’s finding, so there was no clear error.14 VICI
Racing, 763 F.3d at 283 (citation omitted).
B
We nex t det er mine whether Ramsay proved
irreparable harm. “[T]o show irreparable harm a plaintiff
must demonstrate potential harm which cannot be
redressed by a legal or an equitable remedy following a
trial.” Acierno v. New Castle County, 40 F.3d 645, 653 (3d
Cir. 1994) (internal quotation marks and citation omitted).
The harm must be “likely” to occur “in the absence of an
injunction.” Ferring Pharms., Inc. v. Watson Pharms.,
Inc., 765 F.3d 205, 217 n.11 (3d Cir. 2014) (emphasis
omitted) (quoting Winter v. NRDC, Inc., 555 U.S. 7, 22,
129 S. Ct. 365, 172 L. Ed. 2d 249 (2008)).
The District Court had a basis to conclude that Ramsay
would be irreparably harmed absent an injunction. The
Court could reasonably conclude that given Ramsay’s
disability and that she had previously failed Step 1, she
14. Aside from her mother’s statements to Dr. Smith, Ramsay’s
report cards from elementary school are also consistent with her
testimony because her teachers noted she needed “help . . . with the
switching of letters,” App. 871, and “to focus on getting her work
done on time,” App. 875.

22a
Appendix A
likely would fail again and be forced to leave medical
school.15 Ramsay, 2019 U.S. Dist. LEXIS 222782, 2019 WL
7372508, at *18. Her termination from medical school and
its consequences could not later “be redressed by a legal
or an equitable remedy.” Acierno, 40 F.3d at 653 (citation
omitted). No damages remedy is available under the ADA.
42 U.S.C. § 12188(a)(1) (providing that the only remedies
available in an ADA action are those in § 2000a-3(a)); id.
§ 2000a-3(a) (providing for injunctive relief). Furthermore,
because WMed is not a party to this case, the Court could
not require it to reinstate her, and the Board presents no
theory for how the Board could redress the termination
of Ramsay’s medical education. Moreover, an examiner’s
refusal to provide accommodations can cause the examtaker irreparable harm because doing so jeopardizes her
“opportunity to pursue her chosen profession.” Enyart
v. Nat’l Conf. of Bar Exam’rs, 630 F.3d 1153, 1166 (9th
Cir. 2011); accord Doe v. Pa. State Univ., 276 F. Supp. 3d
300, 313-14 (M.D. Pa. 2017) (holding that gap in medical
school education and likelihood that the student could not
gain acceptance to another school constituted irreparable
harm). Accordingly, the District Court correctly concluded
that Ramsay established she would be irreparably harmed
absent an injunction.
15. The letter from WMed provided a basis for the District
Court to conclude that she would be dismissed from the medical
school if she did not pass Step 1. The letter offered to extend
Ramsay’s leave until “March 2, 2020, with the expectation that [she]
will sit for the USMLE Step 1 exam in a manner that allows [her] to
return to” WMed. App. 1520. As noted above, WMed students must
pass Step 1 by the beginning of their fourth year. Thus, to return
to school, Ramsay had to pass Step 1.

23a
Appendix A
C
We next consider how the District Court “balanc[ed]
the parties’ relative harms; that is, the potential injury to
the plaintiff[] without this injunction versus the potential
injury to the defendant with it in place.” Issa v. Sch. Dist.
of Lancaster, 847 F.3d 121, 143 (3d Cir. 2017). In balancing
the harms, the Court noted the Board’s “concern for the
fulfillment of its mission to provide [qualified] physicians,”
Ramsay, 2019 U.S. Dist. LEXIS 222782, 2019 WL
7372508, at *19, and that accommodations “can affect the
comparability of the resulting scores and scores achieved
under standard testing conditions,” 2019 U.S. Dist. LEXIS
222782, [WL] at *4 (quoting App. 931). Nonetheless, the
Court appropriately reasoned that granting a preliminary
injunction would not undermine the Board’s mission
because the injunction would give Ramsay only “the
opportunity to move forward” in her medical career
“should she succeed in passing her examinations with
appropriate accommodations.” 2019 U.S. Dist. LEXIS
222782, [WL] at *19 (emphasis omitted). Moreover, the
Board’s concerns regarding impacts from undeserved
accommodations do not apply here because Ramsay
has shown a reasonable likelihood that she deserves
accommodations. Cf. Issa, 847 F.3d at 143 (holding that
a defendant could not assert an interest in continuing to
violate a civil rights statute).
D
Finally, we consider the District Court’s finding that
“the public interest favors this preliminary injunction.”

24a
Appendix A
Id. The Court concluded that an injunction furthers the
public interest in ADA compliance and serves to increase
the number of qualified physicians. Ramsay, 2019 U.S.
Dist. LEXIS 222782, 2019 WL 7372508, at *19. We agree.
“In enacting the ADA, Congress demonstrated its view
that the public has an interest in ensuring the eradication
of discrimination on the basis of disabilities.” Enyart, 630
F.3d at 1167; see Issa, 847 F.3d at 143 (concluding that it was
in the public interest for covered entities to comply with a
civil rights statute). Further, the injunction allows Ramsay
to continue her medical education and therefore serves the
public interest in training more physicians. “Although it
is true that the public also has an interest in ensuring the
integrity of licensing exams,” Enyart, 630 F.3d at 1167,
Ramsay has shown a reasonable likelihood that the ADA
affords her accommodations, and there is no evidence
that providing her the requested accommodations will
jeopardize the test’s integrity. Thus, the public interest
weighs in favor of an injunction.
III
For the foregoing reasons, we will affirm the District
Court’s preliminary injunction.16

16. Given our conclusion that the District Court correctly
held that Ramsay has shown a likelihood of success on the merits
of her claim that she has a disability for which she is entitled to
accommodations, we will affirm the preliminary injunction requiring
the Board to provide the accommodations on Step 2 CK, any written
or reading portions of Step 2 CS, and Step 3.

25a
Appendix B
APPENDIX B — MEMORANDUM
AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA,
FILED DECEMBER 31, 2019
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION
NO. 19-CV-2002
JESSICA RAMSAY,
Plaintiff
vs.
NATIONAL BOARD OF MEDICAL EXAMINERS,
Defendant
December 30, 2019, Decided;
December 31, 2019, Filed
MEMORANDUM AND ORDER
JOYNER, J.
This case has been brought before this Court on
Motion of the Plaintiff, Jessica Ramsay, for Preliminary
Injunction (Doc. No. 7). Follow ing three full-day
evidentiary hearings on December 3, 4, and 5, 2019, the
matter is now ripe for disposition and we therefore hereby
make the following:

26a
Appendix B
FINDINGS OF FACT
1. Plaintiff Jessica Ramsay is a citizen of the State
of Michigan residing at 6862 Tall Oaks Drive, Apt. 3B,
Kalamazoo, Michigan.
2. Defendant National Board of Medical Examiners
(“NBME”) is a non-profit corporation organized and
existing under the laws of the District of Columbia, with
its principal place of business at 3750 Market Street,
Philadelphia, Pennsylvania.
3. Plaintiff is a medical student in the M.D. program
at the Homer Stryker M.D. School of Medicine of Western
Michigan University (“WMed”).
4. NBME develops a series of standardized timed
examinations that are known collectively as the United
States Medical Licensing Examination (“USMLE”) and
which are largely in written format. NBME administers
these examinations through a third-party-vendor
throughout the United States and these examinations
are relied upon by states throughout the country in
making decisions regarding medical licensure. In order
to receive the degree of Doctor of Medicine (i.e. M.D.), to
apply and/or be considered for medical residency training
programs, and to become licensed as a physician, medical
students must first take and pass all of the USMLE “Step”
examinations.
5. Plaintiff was required by Western Michigan
Medical School to take and pass the USMLE Step 1

27a
Appendix B
examination at or near the end of her third year of medical
school. In addition to being pre-requisite to continuation
of their medical school educations, scores on the Step 1
examination are also significant in that they are used
by medical residency training programs throughout the
United States to rank student candidates in the verycompetitive residency match process. Consequently,
even if a student passes the Step 1 examination but with
a low score, they may be unable to compete or may be
significantly hindered in competing for a residency match
with the possible result that they are not selected at all
for admission to any residency program upon graduation
from medical school.
6. Step 2 of the USMLE consists of two parts: Step 2
CK (Clinical Knowledge) and Step 2 CS (Clinical Skills).
These examinations must also be taken and passed by
M.D. medical students prior to graduation from medical
school.
7. Step 3 of the USMLE must generally be taken and
passed by graduates of M.D. degree programs, prior to
licensing as physicians.1
8. Only students of accredited medical schools are
eligible to take the USMLE Step examinations.
1. As noted by NBME in its Answer to paragraph 18 of
Plaintiff’s Complaint, this process generally applies to medical
students seeking to be licensed as allopathic (M.D.) physicians.
Although similar, the process for testing and/or the examinations
necessary for licensure as osteopathic (D.O.) physicians may be
somewhat different.

28a
Appendix B
9. Plaintiff entered Western Michigan University
Medical School in 2014 and had a projected graduation
date of May, 2018.
10. In March 2009, during her sophomore year at Ohio
State University, Plaintiff was diagnosed with Attention
Deficit Hyperactivity Disorder, Migraine Headaches and
probable dyslexia by her family physician, Dr. Alan Smiy.
She was prescribed Ritalin to treat the ADHD and granted
educational/testing accommodations by and through
the University’s Office of Disability Services (“ODS”),
including additional time to complete examinations (1
1/2 time), taking examinations in a distraction-reduced
space (typically a separate room), use of visual aids
such as colored pencils and markers and access to scrap
paper, along with access to an ODS counselor throughout
the balance of her college career. These and additional
accommodations were also granted to Plaintiff by her
medical school such that she had up to twice (2X) the
time to complete examinations, access to text-to-speech
software and calculator during exams, was permitted
to have a granola bar or other snack and water with her
during testing in her separate exam room, an additional
free print allowance, and written examinations on paper
(so she could mark them up). Among the examinations for
which Plaintiff has received these accommodations during
her medical school career are a number of subject matter
examinations developed by NBME.
11. In or around late November/early December, 2016
while a third-year medical student and in anticipation of
having to sit for the Step 1 USMLE, Plaintiff applied to

29a
Appendix B
NBME for test accommodations, seeking many of the same
accommodations that she had been receiving from Western
Michigan University Medical School and Ohio State
University. Earlier that year, Plaintiff had also suffered a
deep vein thrombosis in her leg causing her to miss some
three weeks from classes. Plaintiff was subsequently
diagnosed with a clotting disorder and prescribed Xarelto.
In support of her application for accommodations, Plaintiff
provided the supporting documents sought by NBME,
including medical and psychological evaluation reports
and records, school reports and a Personal Statement
describing her impairments and how they affect her
current, everyday functioning. Specifically, in addition
to her Personal Statement, Plaintiff had provided copies
of her school records from St. Joseph’s High School,
Ohio State University and Western Michigan University
Medical School, and records/reports from the following
medical/psychological providers and/or evaluators: Dr.
Mary Alice Tanguay, Therapeutic Optometrist, Katherine
Turner, M.D., Alan N. Smiy, M.D., and Charles A.
Livingston, M.A., a Licensed Masters Social Worker and
Limited Licensed Psychologist.
12. NBME did not provide a decision on Plaintiff’s
request until more than three months later - on or
about March 10, 2017. At the time it denied Plaintiff’s
request for accommodations, NBME stated: “Overall,
the documents you provided do not demonstrate a record
of chronic and pervasive problems with inattention,
impulsivity, behavioral regulation, or distractibility that
has substantially impaired your functioning during your
development or currently.” In reaching this conclusion,

30a
Appendix B
NBME noted that “[d]espite your reported history of
difficulties, your documentation shows that you progressed
through primary and secondary school without grade
retention, evaluation, or services and with an academic
record and scores on timed standardized tests sufficient
to gain admission to college, all without accommodations.”
13. Faced with an NBME requirement that she submit
new information as a pre-requisite for reconsideration
or an appeal of its denial, Plaintiff took the Step 1
examination in July 2017 without accommodations with
the hope that she could pass and enter into her fourth
year of medical school. In so doing, Plaintiff was unable
to read all of the questions in each testing “block” which
required her to guess at the answers to those remaining
questions that she did not have time to read. Plaintiff
failed the examination by one point.
14. As a consequence of her failure of the USMLE Step
1 exam and in order to afford Plaintiff the opportunity to
take the exam with accommodations, Western Michigan
Medical School permitted Plaintiff to take a leave of
absence which effectively commenced in August 2017.
That leave of absence has been extended several times
such that it continues to the present. However, Plaintiff
has been advised by the school that no further extensions
will be granted and she will be required to withdraw from
the medical school if she does not take and pass the Step
1 examination by March 2, 2020.
15. On June 6, 2018, Plaintiff re-applied to NBME for
accommodations on her re-take of the Step 1 USMLE,

31a
Appendix B
after having submitted to additional evaluations by Alan
Lewandowski, Ph.D., a Neurologist/Clinical Psychologist
and Bruce Reukberg, M.D. a psychiatrist, both of whom
found that Plaintiff met the DSM-5 and the ICD-10 2
criteria for Attention Deficit and Hyperactivity Disorder
- Combined Type, and the Specific Learning Disorders
of Abnormal Scanning and Processing Speed with
Impairments in Reading and Written Expression. In
addition to providing these records/reports and all of
the other materials that she had previously submitted
as well as an updated Personal Statement, Plaintiff also
provided letters of support from Jennifer N. Houtman,
M.D., her then-primary care physician and her medical
school mentor and Clinical Skills course instructor, and
David Overton, M.D., the Associate Dean and Chair of
the Essential Abilities Committee at Western Michigan
University Medical School attesting to Plaintiff ’s
diagnoses of ADHD, Learning Disorders, Migraine
Headaches and Clotting Disorder with recent Deep Vein
Thrombosis and Post-Thrombotic Syndrome and to her
need for accommodations on the Step 1 USMLE.
16. On September 11, 2018, NBME again found that
Plaintiff’s “documentation does not demonstrate that 100%
additional testing time is an appropriate modification of
your USMLE Step 1 administration,” reasoning that since
Ms. Ramsay’s performance on the Conners Continuous
2. The DSM-5 is the Diagnostic and Statistical Manual of
Mental Disorders, Fifth Edition of the American Psychiatric
Association and the ICD-10 is the 10 th revision of the International
Statistical Classification of Diseases and Related Health Problems
from the World Health Organization.

32a
Appendix B
Performance Test was normal, she had attained a 3.8
Grade Point Average in high school, an ACT score between
27 and 30 and a 30 M on the MCAT all under standard
conditions, the data did not “demonstrate a developmental
history of impaired cognitive or academic functioning or
that standard testing time is a barrier to your access to
the USMLE.” Nevertheless, recognizing that Plaintiff’s
clotting disorder required some accommodation, NBME
granted Plaintiff additional break time and testing over
two days, a separate testing room to permit her to stand,
walk or stretch during the exam and permission to read
aloud in that room.
17. On or about September 25, 2018, Plaintiff
consulted Robert D. Smith, Ph.D., another Psychologist/
Neuropsychologist and the Michigan Dyslexia Institute for
yet another evaluation, this time targeted at her dyslexia
in anticipation of an appeal of the NBME’s September
11, 2018 denial. Dr. Smith administered a battery of
tests, some of which were the same as those which had
been previously administered by Dr. Lewandowski and
Charles Livingston. At the conclusion of testing, Dr.
Smith determined that Plaintiff did indeed have the
specific learning disorder of developmental dyslexia
which impaired her reading, reading comprehension
and severely impaired her reading rate and fluent word
recognition. Dr. Smith concluded that “Jessica’s pattern
of reading and writing scores is typical of the intelligent
dyslexic reader who struggles with efficient decoding
and processing of the printed words, but can use her
intelligence to substantially compensate and extract
seemingly adequate comprehension from passages.” In also

33a
Appendix B
diagnosing Plaintiff with Attention Deficit Hyperactivity
Disorder - Combined Presentation and finding her level
of reading impairment to be severe such that it could be
“expected to significantly and substantially interfere
with education efforts without accommodations such as
extended time,” Dr. Smith also recommended a series of
testing accommodations including 100% additional time.
18. Plaintiff thereafter sought reconsideration of the
NBME’s September 11, 2018 decision by way of an appeal
letter sent on her behalf by her attorney, Lawrence Berger,
on December 12, 2018. Once again, in reliance on Plaintiff’s
overall strong academic performance throughout her
educational career and on the earlier standardized ACT
and MCAT test scores, NBME denied Plaintiff’s appeal
and her renewed request for the extended testing time
accommodation on February 14, 2019.
19. On March 19, 2019, Plaintiff’s counsel sent another
letter to the NBME requesting reconsideration of its
September 11, 2018 and February 14, 2019 denials. In
an email addressed to Plaintiff by NBME’s Director
of Disability Services and ADA Compliance Officer
for Testing Prog rams, Cather ine Far mer, dated
March 27, 2019, NBME denied the request for further
reconsideration. In the email, Dr. Farmer reiterated
that, in view of Plaintiff’s “average and above average
performances on timed standardized tests taken for
the purpose of gaining admission to college and medical
school,” NBME had concluded that Plaintiff’s “skills
are better than most people in the general population.”
NBME made this determination notwithstanding that

34a
Appendix B
its evaluator had accepted that Plaintiff’s “exceptionally
low scores on timed reading tests administered for the
purpose requesting test accommodations [was] valid and
credible.”
20. In making its decision to deny Plaintiff’s requests
for accommodations, NBME referred Ms. Ramsay’s
applications and supporting documentation to two of its
outside, independent contractor-evaluators, Steven G.
Zecker, Ph.D. and Benjamin J. Lovett, Ph.D. for their
opinions. Dr. Zecker is presently an Associate Professor
in the Department of Communication Sciences and
Disorders at Northwestern University and has been
employed by NBME as an outside consultant/evaluator
for the past 16 years. Dr. Lovett is now currently an
Associate Professor of Psychology and Education at
Teachers College, Columbia University 3 and has been
employed as an outside consultant/evaluator since 2010.
Both Drs. Zecker and Lovett are paid at the rate of $200
per hour for their reviewing services. Drs. Zecker and
Lovett reviewed only the written materials submitted
by Plaintiff; neither ever interviewed or met her prior to
giving their opinions to NBME and to testifying as expert
witnesses before this Court.
21. Prior to the enactment of the ADA Amendments
Act of 2008, NBME, along with seven other standardized
3. At the time of his review of Plaintiff’s accommodations
request, Dr. Lovett was an Associate Professor of Psychology at
the State University of New York (SUNY) Cortland and an Adjunct
Professor of Psychology at Syracuse University. Dr. Zecker has held
his position at Northwestern University since 1991.

35a
Appendix B
testing organizations4, sent a letter dated July 14, 2008 to
various U.S. Senators opposing the passage of the Act as it
was written. Among the “significant concerns” expressed
by these organizations were the “significant costs in
complying with the ADA,” and “the important implications
beyond just the substantial costs incurred by testing
organizations to provide such accommodations.” It was the
expressed opinion of the testing organizations that “[t]hese
requests [for accommodations] involve, in some way, the
very cognitive skills (such as thinking and concentrating)
that a standardized exam is attempting to measure,” and
that “[t]he provision of such accommodations - especially
extra testing time - can affect the comparability of the
resulting scores and scores achieved under standard
testing conditions.... Accommodations can thus undermine
the very purpose of a ‘standardized’ examination” such
that they could “also affect the interests of the general
public if the exams in question are licensing exams or
exams that are taken to gain access to professional schools
such as medical school or law school.”
22. Some six years later, in response to the ADA
Notice of Proposed Rulemaking concerning the drafting
of the implementing Regulations by DOJ for the ADA
Amendments Act, Defense counsel Robert Burgoyne
wrote a lengthy letter on behalf of four standardized
4. These organizations were ACT, Inc., the Association of
American Medical Colleges, the Federation of State Medical Boards
of the United States, Inc., the Graduate Management Admission
Council, the Law School Admission Council, the National Conference
of Bar Examiners and the National Council of Examiners for
Engineering and Surveying.

36a
Appendix B
testing organizations which he represented, including
NBME. 5 In that letter, the four organizations took
exception to and opposed, inter alia: (1) the inclusion of
the directive that “the primary object of attention in cases
brought under the ADA should be whether entities covered
under the ADA have complied with their obligations and
whether discrimination has occurred, not whether the
individual meets the definition of disability” in 28 C.F.R.
§36.101(b); (2) the notation that “[t]he question of whether
an individual meets the definition of disability under
this part should not demand extensive analysis” in 28
C.F.R. §36.101(b) and 28 C.F.R. §36.105(d)(1)(iii); (3) the
language that “[s]ubstantially limits is not meant to be a
demanding standard” proposed for inclusion in 28 C.F.R.
§36.105(d)(1)(i); (4) the inclusion in the discussion of the
proposed rules of examples of “self-mitigating measures
or undocumented modifications or accommodations for
students with impairments that affect learning, reading,
or concentrating” as possibly including “measures such
as devoting a far larger portion of the day, weekends
and holidays to study than students without disabilities;
teaching oneself strategies to facilitate reading connected
text or mnemonics to remember facts, receiving extra
time to complete tests, receiving modified homework
assignments, or being permitted to take exams in a
different format or in a less stressful or anxiety-provoking
setting. Each of these mitigating measures, whether
5. Mr. Burgoyne represents NBME in this case and the
organizations which he represented in the drafting of this letter,
in addition to NBME were the Association of American Medical
Colleges (“AAMC”), the Graduate Management Admission Council
(“GMAC”) and the National Conference of Bar Examiners (“NCBE”).

37a
Appendix B
formal or informal, documented or undocumented,
can lessen the impact of, and improve the academic
function of a student having to deal with a substantial
limitation in a major life activity such as concentrating,
reading, speaking, learning, or writing. Nevertheless,
these are only temporary supports; the individual still
has a substantial limitation in a major life activity and
would be a person with a disability under the ADA.” In
that same letter Mr. Burgoyne, on behalf of the testing
organizations asked that DOJ “add a regulation which
notes that, although mitigating measures are not to be
considered in assessing whether a person has a disability,
it is appropriate to consider such measures in determining
whether accommodations are needed.” He suggested: “The
purpose of accommodations is to address an individual’s
functional limitations. If mitigating measures already
address an individual’s functional limitations, there is no
need for accommodations.”
23. On or about December 5, 2016, Defense counsel
Burgoyne gave a power point presentation in the course
of a training seminar to NBME’s outside consulting
reviewers such as Drs. Zecker and Lovett, among
others, which was entitled “ADA Legal Update for
NBME and its Outside Consultants.” In addition to
reviewing the relevant provisions of the ADA applicable
to entities offering examinations related to licensing and
credentialing for secondary or post-secondary education,
professional or trade purposes, the presentation included
a discussion of the process underlying the Department of
Justice’s (“DOJ”) Title II and Title III Rulemaking. In
the course of that discussion, the power point presentation

38a
Appendix B
included the following observations on the DOJ’s Notice
of Proposed Rulemaking (dated 1/30/14 and found at 79
Fed. Reg. 483):
• ... many ADHD diagnoses may not “meet
the clinical definition ... and thus would not
qualify for an accommodation under the
revised definition of disability” (prompting
DOJ to reduce its estimate of the # of
individuals with ADHD by 30%)
• In response to comments on the proposed
rule, DOJ added ADHD as an example of
a physical or mental impairment that can
constitute a covered disability
• ... that, in estimating the cost impact of the
new regulations on testing entities and
colleges when it published its Notice of
Proposed Rulemaking, DOJ “had assumed
based on some available research that 30
percent of those who self-identify as having
ADHD as their primary disability would not
need additional testing time because they
would not meet the clinical definition of the
disability.”
• DOJ retreated from that approach in the final
rule, because of concerns raised by some
commenters
• “One commenter raised concern about
presenting a specific percentage of students

39a
Appendix B
with ADHD who would not meet that
clinical definition, because that number
might inadvertently become a benchmark
for postsecondary institutions and national
testing entities to deny accommodations to a
similar percentage of applicants requesting
additional exam time because of their
ADHD.”
• “The Department did not intend for this
percentage to establish a benchmark.
Covered entities should continue to evaluate
requests for additional exam time by
all individuals w ith disabilities on an
individualized basis. In direct response to
these concerns, the Department has decided
not to reduce the number of individuals
with ADHD who could now receive testing
accommodations as a direct result of the
ADA Amendments Act in estimating the
financial impact of the new regulations.”
(emphasis in original)
DISCUSSION
On May 8, 2019, Plaintiff filed her Complaint
commencing this action alleging violations and seeking
relief under the Americans with Disabilities Act, 42 U.S.C.
§12101, et. seq. (“ADA”) and Section 504 of the Rehabilitation
Act, 29 U.S.C. §794 (“Section 504”) . Following the filing of
Defendant’s Answer to the Complaint, Plaintiff filed the
Motion for Preliminary Injunction which is now before

40a
Appendix B
us. By this motion, Plaintiff asks this Court to enter
an injunction in her favor preliminarily enjoining and
restraining NBME and all others acting in concert with
it from refusing to grant her the accommodation of 100%
extended testing (double) time for the USMLE Step 1 and
all subsequent Step USMLE examinations.
A. Standards for Ruling on Preliminary Injunction
Motions
Fed. R. Civ. P. 65(d) outlines the “Contents and Scope
of Every Injunction and Restraining Order” by way of the
following language:
(1) Contents.
Every order granting an injunction and every
restraining order must:
(A) state the reasons why it issued;
(B) state its terms specifically; and
(C) describe in reasonable detail and not by referring to the complaint
or other document - the act or acts
restrained or required.
(2) Persons Bound. The order binds only the
following who receive actual notice of it by
personal service or otherwise:

41a
Appendix B
(A) the parties;
(B) the parties’ officers, agents,
servants, employees, and attorneys;
and
(C) other persons who are in active
concert or participation with anyone
described in Rule 65(d)(2)(A) or (B).
Of course, under Rule 65(a)(1), a preliminary
injunction may only issue on notice to the adverse party.
“A preliminary injunction is an extraordinary and drastic
remedy, one that should not be granted unless the movant,
by a clear showing, carries the burden of persuasion.”
Mazurek v. Armstrong, 520 U.S. 968, 972, 117 S. Ct. 1865,
1867, 138 L. Ed.2d 162 (1997)(emphasis in original). “A
plaintiff seeking a preliminary injunction must establish
that he is likely to succeed on the merits, that he is likely
to suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor, and
that an injunction is in the public interest.” Winter v.
NRDC, Inc., 555 U.S. 7, 20, 129 S. Ct. 365, 374, 172 L.
Ed. 2d 249 (2008). “The grant or denial of a preliminary
injunction is almost always based on an abbreviated set
of facts, requiring a delicate balancing of the probabilities
of ultimate success at final hearing with the consequence
of immediate irreparable injury.” GlaxoSmithKline
Consumer Healthcare, L.P. v. Merix Pharmaceutical
Corp., No. 05-4566, 2006 U.S. App. LEXIS 16377, 197 Fed.
Appx. 120, 123 (3d Cir. 2006)(quoting U.S. Steel Corp. v.
Fraternal Ass’n of Steelhaulers, 431 F.2d 1046, 1048 (3d

42a
Appendix B
Cir. 1970)). Indeed, “[i]n each case courts ‘must balance
the competing claims of injury and must consider the
effect on each party of the granting or withholding of the
requested relief.’” Winter, 555 U.S. at 24, 129 S. Ct. at 377
(quoting Amoco Production Co. v. Gambell, 480 U.S. 531,
542, 107 S. Ct. 1396, 94 L. Ed.2d 542 (1987)).
It should also be noted that in order to make the
required showing of irreparable harm, it is incumbent
upon the plaintiff to demonstrate that he is threatened by
a harm “which cannot be redressed by a legal or equitable
remedy...” “The preliminary injunction must be the only
way of protecting the plaintiff from [the] harm.” Campbell
Soup Co. v. ConAgra, Inc., 977 F.2d 86, 91 (3d Cir. 1992)
(quoting ECRI v. McGraw-Hill, Inc., 809 F.2d 223, 226
(3d Cir. 1987)). Moreover, “a party seeking a mandatory
preliminary injunction that will alter the status quo
bears a particularly heavy burden in demonstrating its
necessity.” Ferring Pharms., Inc. v. Watson Pharms., Inc.,
765 F.3d 205, 219, n. 13 (3d Cir. 2014)((quoting Acierno v.
New Castle County, 40 F.3d 645, 653 (3d Cir. 1994); See
also, Doe v. Law School Admission Council, Inc., Nos. 173230, 17-3357, 791 Fed. Appx. 316, 2019 U.S. App. LEXIS
32784 at * 10 (3d Cir. Nov. 1, 2019)(same).
B.

Plaintiff’s Entitlement to Accommodations
under the Americans with Disabilities Act and/
or the Rehabilitation Act

As stated, Plaintiff here is alleging that NBME violated
Title III of the Americans with Disabilities Act (“ADA”),
42 U.S.C. §12182 and Section 504 of the Rehabilitation Act

43a
Appendix B
(“§504” and/or “RHA”), 29 U.S.C. §794 by failing to grant
her repeated requests for accommodations in the taking
of Step 1 of the USMLE.6 In general, these Acts provide
the following in pertinent part:
§12182. Prohibition of discrimination by
public accommodations.
(a) General rule. No individual shall be
discriminated against on the basis of disability
in the full and equal enjoyment of the goods,
6. It should be noted that Defendant long ago conceded that its
services constitute a public accommodation covered by title III of the
ADA. See, e.g., Powell v. Nat’l Bd. of Med. Exam’rs, 364 F.3d 79, 85
(2d Cir. 2004). Defendant also does not dispute that it is subject to
this portion of the ADA here, though it denies that it is the recipient
of Federal financial assistance such as is required to be subject to
§504 of the RHA. (Def’s Ans. to Pl’s Compl., Doc. No. 3, ¶s 3-4).
Insofar as it appears that no discovery has been taken and no record
evidence on the matter of NBME’s receipt of federal funds has been
presented, however, we cannot and do not address that issue at this
time. Indeed, it is not necessary that we do so now given that the
standards adopted by titles II and III of the ADA are generally the
same as those required under the RHA and that for this reason,
Courts typically consider the merits of claims under both statutes
together. Powell, supra, (citing Henrietta D. v. Bloomberg, 331 F.3d
261, 272 (2d Cir. 2003)); K.N. v. Gloucester City Board of Education,
379 F. Supp. 3d 334, 354-355 (D.N.J. 2019). See also, Bragdon v.
Abbott, 524 U.S. 624, 631-632, 118 S. Ct. 2196, 2202, 141 L. Ed.2d
540, 553 (1998)(“The ADA’s definition of disability is drawn almost
verbatim from the definition of “handicapped individual” included
in the Rehabilitation Act of 1973, ... and the definition of “handicap”
contained in the Fair Housing Amendments Act of 1988.” (internal
citations omitted).

44a
Appendix B
services, facilities, privileges, advantages,
or accommodations of any place of public
accommodation by any person who owns, leases
(or leases to), or operates a place of public
accommodation.
....
§794. Nondiscrimination under Federal
grants and programs
(a) Promulgation of rules and regulations.
No other wise qualified individual with a
disability in the United States, as defined in
section 7(20) [29 U.S.C. §725(20)], shall, solely
by reason of his or her disability, be excluded
from the participation in, be denied the benefits
of, or be subjected to discrimination under any
program or activity receiving Federal financial
assistance or under any program or activity
conducted by any Executive agency or by the
United States Postal Service. ...
Under the ADA, “[t]he term ‘disability means, with
respect to an individual (A) a physical or mental impairment that
substantially limits one or more major life
activities of such individual;
(B) a record of such an impairment; or

45a
Appendix B
(C) bei ng rega rded a s hav i ng such a n
impairment...
42 U.S.C. §12102(1). “Major life activities,” in turn, “include
but are not limited to, caring for oneself, performing
manual tasks, seeing, hearing, eating, sleeping, walking,
standing, lifting, bending, speaking, breathing, learning,
reading, concentrating, thinking, communicating, and
working.” 42 U.S.C. §12102(2). Under Section 504 of the
RHA, an “[i]ndividual with a disability” is defined to mean
in general “any individual who(i) has a physical or mental impairment which
for such individual constitutes or results in a
substantial impediment to employment; and
(ii) can benefit in terms of an employment
outcome from vocational rehabilitation services
provided pursuant to title I, III, or VI [29 U.S.C.
§§720, et. seq. 771, et. seq. or 795 et. seq.]
29 U.S.C. §705(20)(A).
Title III of the ADA renders testing entities such
as Defendant here subject to its anti-discrimination
mandates. In this regard, 42 U.S.C. §12189 provides:
§12189. Examinations and courses
Any person that offers examinations or courses
related to applications, licensing, certification or
credentialing for secondary or post-secondary
education, professional, or trade purposes

46a
Appendix B
shall offer such examinations or courses in a
place and manner accessible to persons with
disabilities or offer alternative accessible
arrangements for such individuals.
To show a violation of the ADA based on a failure
to accommodate, a Plaintiff must prove: (1) that she
is disabled; (2) that her requests for accommodation
are reasonable; and (3) that those requests have been
denied. Rawdin v. American Board of Pediatrics, 985 F.
Supp. 2d 636, 647 (E.D. Pa. 2013); Mahmood v. National
Board of Medical Examiners, No. 12-1544, 2012 U.S.
Dist. LEXIS 86837, 2012 WL 2368462 at * 4 (E.D. Pa.
June 21, 2012)). In this case, there is no dispute as to the
reasonableness of Plaintiff’s requested accommodations
nor is there any question but that her request has been
denied.7 Consequently, the threshold issues before us
for adjudication are whether or not the Plaintiff truly is
disabled and, of course, whether the pre-requisites for
issuance of a preliminary injunction have been satisfied.
In determining the question of Plaintiff’s disability,
we must examine the evidence presented at the hearing
7. As set forth above in our factual findings, Plaintiff initially
sought 100% additional exam time (double time), a separate,
distraction-reduced room for testing, colored dry-erase markers
to use on the laminated paper, an alarm or timer (either in the
room, visible on the computer screen or a visual signal or reminder
from a proctor), water and a snack in the room to facilitate taking
needed medications at the appropriate times. Following Plaintiff’s
second application, NMBE granted Plaintiff all of her requested
modifications with the exception of additional time, although they did
permit added break time and testing over 2 days. Accordingly, the
only accommodation still being sought is that of additional (double)
testing time.

47a
Appendix B
under the lens of the ADA Amendments Act of 2008 which
took effect on January 1, 2009. As clearly reflected in
Section 2, the Findings and Purpose Notes to the text of
the Amendments Act, the Statute was a direct response
to what Congress believed was the improper narrowing
of the “broad scope of protection intended to be afforded
by the ADA” by the Supreme Court decisions in Sutton v.
United Air Lines, Inc., 527 U.S. 471, 119 S. Ct. 2139, 144
L. Ed. 2d 450 (1999) and Toyota Motor Manufacturing,
Kentucky, Inc. v. Williams, 534 U.S. 184, 122 S. Ct. 681,
151 L. Ed. 2d 615 (2002) which had the effect of “eliminating
protection for many individuals whom Congress intended
to protect.” See, e.g., 122 Stat. 3553; 110 P.L. 325; Enacted
S. 3406; 110 Enacted S. 3406 (Sept. 25, 2008). Specifically,
Congress took exception with what it characterized as
lower courts’ incorrect findings “in individual cases that
people with a range of substantially limiting impairments
are not people with disabilities,” and with the then-current
EEOC ADA regulations defining the term “’substantially
limits’ as ‘significantly restricted’” for the reason that that
definition was “inconsistent with congressional intent, by
expressing too high a standard.” Id. In so doing, Congress
meant to convey that its intent was “that the primary
object of attention in cases brought under the ADA
should be whether entities covered under the ADA have
complied with their obligations,” ... and “that the question
of whether an individual’s impairment is a disability under
the ADA should not demand extensive analysis.” Id. The
Amendments Act further clarified that:
“[t]he determination of whether an impairment
substantially limits a major life activity shall

48a
Appendix B
be made without regard to the ameliorative
effects of mitigating measures such as (I)
medication, medical supplies, equipment,
or appliances, low-vision devices (which do
not include ordinary eyeglasses or contact
lenses), prosthetics including limbs and
devices, hearing aids and cochlear implants
or other implantable hearing devices, mobility
devices, or oxygen therapy equipment and
supplies; (II) use of assistive technology; (III)
reasonable accommodations or auxiliary aids or
services; or (IV) learned behavioral or adaptive
neurological modifications.”
42 U.S.C. §12102(4)(E)(1).
The implementing regulations promulgated by the
Department of Justice8 are similar9. Indeed, 29 C.F.R.
§1630.1(c)(4) and 28 C.F.R. §36.101(b) both provide:
8. “Congress directed the DOJ to promulgate regulations
implementing Title III, 42 U.S.C. §12186(b), and, as a result, such
regulations are ‘entitled to substantial deference,’ and ‘given
controlling weight unless they are arbitrary, capricious, or manifestly
contrary to the statute.” Rawdin v. American Board of Pediatrics,
No. 13-4544, 582 Fed. Appx. 114, 118, n.9, 2014 U.S. App. LEXIS
17002, 2014 WL 4345834 (3d Cir. Sept. 3, 2014)(quoting Chevron,
U.S.A., Inc. v. Natural Res. Defense Council, Inc., 467 U.S. 837, 844,
104 S. Ct. 2778, 81 L. Ed. 2d 694 (1984) and Helen L. v. DiDario, 46
F.3d 325, 331-32 (3d Cir. 1995)).
9. In fact, the language of 29 C.F.R. §1630.2 and 28 C.F.R.
§§ 36.105 and 36.301 outlining the purpose and broad coverage goal
and setting forth key definitions nearly mirrors that contained in
the statute itself at §§12101, 12102, 12103 and 12111.

49a
Appendix B
Broad coverage. The primary purpose of the
ADAAA is to make it easier for people with
disabilities to obtain protection under the ADA.
Consistent with the Amendments Act’s purpose
of reinstating a broad scope of protection under
the ADA, the definition of “disability” in this
part shall be construed broadly in favor of
expansive coverage to the maximum extent
permitted by the terms of the ADA. The
primary object of attention in cases brought
under the ADA should be whether covered
entities have complied with their obligations
and whether discrimination has occurred, not
whether the individual meets the definition of
disability. The question of whether an individual
meets the definition of disability under this part
should not demand extensive analysis.
29 C.F.R. §1630.2(j) is particularly instructive with regard
to the meaning to be ascribed to the term “substantially
limits” and provides as follows in relevant part:
(1) Rules of construction. The following rules of
construction apply when determining whether
an impairment substantially limits an individual
in a major life activity:
(i) The term “substantially limits”
shall be construed broadly in favor of
expansive coverage, to the maximum
extent permitted by the terms of the
ADA. “Substantially limits” is not
meant to be a demanding standard.

50a
Appendix B
(ii) An impairment is a disability
within the meaning of this section
if it substantially limits the ability
of an individual to perform a major
life activity as compared to most
people in the general population.
An impairment need not prevent, or
significantly or severely restrict, the
individual from performing a major
life activity in order to be considered
substantially limiting. Nonetheless,
not every impairment will constitute
a disability within the meaning of this
section.
(iii) The primary object of attention
in cases brought under the ADA
should be whether covered entities
have complied with their obligations
and whether discr imination has
occurred, not whether an individual’s
impai r ment substantially limits
a major life activity. Accordingly,
the threshold issue of whether an
impairment “substantially limits” a
major life activity should not demand
extensive analysis.
(iv) The determination of whether
an impairment substantially limits
a major life activity requires an
individualized assessment. However,

51a
Appendix B
in mak ing this assessment , the
term “substantially limits” shall be
interpreted and applied to require
a degree of functional limitation
that is lower than the standard for
“substantially limits” applied prior to
the ADAAA.
(v) The comparison of an individual’s
performance of a major life activity to
the performance of the same major life
activity by most people in the general
population usually will not require
scientific, medical, or statistical
analysis. Nothing in this paragraph
is intended, however, to prohibit the
presentation of scientific, medical, or
statistical evidence to make such a
comparison where appropriate.
(vi) The determination of whether
an impairment substantially limits
a major life activity shall be made
without regard to the ameliorative
effects of mitigating measu res.
However, the ameliorative effects of
ordinary eyeglasses or contact lenses
shall be considered in determining
whether an impairment substantially
limits a major life activity.
(vii) An impairment that is episodic or
in remission is a disability if it would

52a
Appendix B
substantially limit a major life activity
when active.
(viii) An impairment that substantially
limits one major life activity need not
substantially limit other major life
activities in order to be considered
a substantially limiting impairment.
(ix) The six month “transitory” part of
the “transitory and minor” exception to
“regarded as” coverage in §1630.15(f)
does not apply to the definition of
“disability” under paragraphs (g)(1)
(i) (the “actual disability” prong) or
(g)(1)(ii) (the “record of” prong) of this
section. The effects of an impairment
lasting or expected to last fewer
than six months can be substantially
limiting within the meaning of this
section.
...
(4) Condition, manner, or duration -(i) At all times taking into account
the principles in paragraphs (j)(1)
(i) through (ix) of this section, in
determining whether an individual is
substantially limited in a major life
activity, it may useful in appropriate
cases to consider, as compared to most

53a
Appendix B
people in the general population, the
condition under which the individual
performs the major life activity;
the manner in which the individual
performs the major life activity; and/
or the duration of time it takes the
individual to perform the major life
activity, or for which the individual can
perform the major life activity.
(ii) Consideration of facts such
as condition, manner, or duration
may include, among other things,
consideration of the difficulty, effort,
or time required to perform a major
life activity; pain experienced when
performing a major life activity; the
length of time a major life activity
can be performed; and/or the way an
impairment affects the operation of a
major bodily function. In addition, the
non-ameliorative effects of mitigating
measures, such as negative side effects
of medication or burdens associated
with following a particular treatment
regimen, may be considered when
determining whether an individual’s
impairment substantially limits a
major life activity.
(iii) In determining whether an
individual has a disability under the
“actual disability” or “record of ”

54a
Appendix B
prongs of the definition of disability,
the focus is on how a major life activity
is substantially limited, and not on
what outcomes an individual can
achieve. For example, someone with a
learning disability may achieve a high
level of academic success, but may
nevertheless be substantially limited
in the major life activity of learning
because of the additional time or effort
he or she must spend to read, write,
or learn compared to most people in
the general population.
(iv) Given the rules of construction set
forth in paragraphs (j)(1)(i) through
(ix) of this section, it may often be
unnecessary to conduct an analysis
involving most or all of these types
of facts. This is particularly true
with respect to impairments such
as those described in paragraph
(j)(3)(iii) of this section, which by
their inherent nature should be
easily found to impose a substantial
limitation on a major life activity,
and for which the individualized
assessment should be particularly
simple and straightforward.
(5) Examples of mitigating measures - Mitigating measures include, but are not
limited to:

55a
Appendix B
(i) Medication, medical supplies,
equipment, or appliances, low-vision
devices (def ined as devices that
mag nify, enhance, or other w ise
augment a visual image, but not
including ordinary eyeglasses or
contact lenses), prosthetics including
limbs and devices, hearing aid(s)
and cochlear implant(s) or other
implantable hearing devices, mobility
devices, and oxygen therapy equipment
and supplies;
(ii) Use of assistive technology;
(iii) Reasonable accommodations or
“auxiliary aids or services” (as defined
by 42 U.S.C. §12103(1);
(iv) Learned behavioral or adaptive
neurological modifications; or
(v) Psychotherapy, behavioral therapy,
or physical therapy.
(6) Ordinary eyeglasses or contact lenses -defined. Ordinary eyeglasses or contact lenses
are lenses that are intended to fully correct
visual acuity or to eliminate refractive error.
It is particularly noteworthy for purposes of this case
that specific learning disabilities such as dyslexia and

56a
Appendix B
Attention Deficit Hyperactivity Disorder are included
within the definition of “physical or mental impairment”
for purposes of the Act(s). 28 C.F.R. §36.105(b)(1)(ii); (b)
(2). Furthermore, 28 C.F.R. §36.309, the regulation which
specifically governs the giving of “Examinations and
Courses” states the following in relevant part:
(a) General. Any private entity that offers
examinations or courses related to applications,
licensing, certification, or credentialing for
seconda r y or postseconda r y education,
professional or trade purposes shall offer such
examinations or courses in a place and manner
accessible to persons with disabilities or offer
alternative accessible arrangements for such
individuals.
(b) Examinations. (1) Any private entity
offering an examination covered by this section
must assure that -(i) The examination is selected and
administered so as to best ensure that,
when the examination is administered
to an individual with a disability that
impairs sensory, manual or speaking
skills, the examination accurately
reflect the individual’s aptitude or
achievement level or whatever other
factor the examination purports to
measure, rather than reflecting the
individual’s impaired sensory, manual

57a
Appendix B
or speaking skills (except where
those skills are the factors that the
examination purports to measure);
(ii) An examination that is designed
for individuals with impaired sensory,
manual, or speaking skills is offered
at equally locations, as often, and
in as timely a manner as are other
examinations; and
(iii) The examination is administered
in facilities that are accessible to
i nd iv idua ls w ith d isabi l it ies or
alternative accessible arrangements
are made.
(iv) Any request for documentation,
if such documentation is required, is
reasonable and limited to the need
for the modification, accommodation,
or auxiliary aid or service requested.
(v) When considering requests for
modi f ications, accommodations,
or auxiliary aids or services, the
entity gives considerable weight to
documentation of past modifications,
or related aids and services provided
in response to an Individualized
Education Program (IEP) provided
under the Individuals with Disabilities

58a
Appendix B
Education Act or a plan describing
services provided pursuant to section
504 of the Rehabilitation Act of 1973,
as amended (often referred to as a
Section 504 Plan).
(vi) The entity responds in a timely
manner to requests for modifications,
accommodations, or aids to ensure
equal opportunity for individuals with
disabilities.
(2) Required modifications to an examination
may include changes in the length of time
permitted for completion of the examination
and adaptation of the manner in which the
examination is given.
(3) A private entity offering an examination
covered by this section shall provide appropriate
auxiliary aids for persons with impaired
sensory, manual, or speaking skills, unless that
private entity can demonstrate that offering a
particular auxiliary aid would fundamentally
alter the measurement of the skills or knowledge
the examination is intended to test or would
result in an undue burden. Auxiliary aids
and services required by this section may
include taped examinations, interpreters
or other effective methods of making orally
delivered materials available to individuals with
hearing impairments, Brailled or large print

59a
Appendix B
examinations and answer sheets or qualified
readers for individuals with visual impairments
or learning disabilities, transcribers for
individuals with manual impairments, and other
similar services and actions.
(4) A lternative accessible arrangements
may include, for example, provision of an
examination at an individual’s home with a
proctor if accessible facilities or equipment
are unavailable. Alternative arrangements
must provide comparable conditions to those
provided for nondisabled individuals.
....
In applying the foregoing to the case at hand, we note
that insofar as the above-quoted regulations are “the
equivalent[s] of a ‘legislative rule’ ... issued by an agency
pursuant to statutory authority,” they thus have the
‘force and effect’ of law.” PDR Network, LLC v. Carlton
& Harris Chiropractic, Inc., 139 S. Ct. 2051, 2055, 204 L.
Ed.2d 433 (2019)(quoting Chrysler Corp. v. Brown, 441
U.S. 281, 302-303, 99 S. Ct. 1705, 60 L. Ed.2d 208 (1979)
and Batterton v. Francis, 432 U.S. 416, 425, n.9, 97 S. Ct.
2399, 53 L. Ed.2d 448 (1977)). At the very minimum, the
regulations are “entitled to substantial deference” and
“given controlling weight” unless “it can be shown that
they are arbitrary, capricious, or manifestly contrary to
the statute.” See, n. 8, supra. See also, Olmstead v. L.C. ex
rel. Zimring, 527 U.S. 581, 597-598, 119 S. Ct. 2176, 21852186, 144 L. Ed.2d 540 (1999)(“Because the Department

60a
Appendix B
[of Justice] is the agency directed by Congress to issue
regulations implementing Title II, ... its views warrant
respect”) and Bragdon v. Abbott, 524 U.S. 624, 642, 118 S.
Ct. 2196, 141 L. Ed.2d 540 (1998)(“It is enough to observe
that the well-reasoned views of the agencies implementing
a statute ‘constitute a body of experience and informed
judgment to which courts and litigants may properly
resort for guidance’”(quoting Skidmore v. Swift & Co.,
323 U.S. 134, 139-140, 65 S. Ct. 161, 89 L. Ed. 124 (1944)).
Defendant NBME does not disagree that the regulatory
language addressing the type of accommodations sought
by Plaintiff is appropriately applied here if Plaintiff is
found to be disabled within the meaning of the statutes.
See e.g., Defendant NBME’s Opposition to Plaintiff’s
Motion for Preliminary Injunction at p. 22. Thus,
the threshold question in this matter for purposes of
assessing the correctness of NBME’s decisions to deny
accommodations to Plaintiff and determining Plaintiff’s
likelihood of success on the merits, is whether or not Ms.
Ramsay truly is disabled within the meaning of the ADA
and/or the RHA.
In resolving this question, we note at the outset that
Defendant is right that the documentary evidence of
Plaintiff’s ADHD and dyslexia in her early years is indeed
sparse and that for the most part, Plaintiff performed
exceedingly well overall academically during this time
with little help. Likewise, Ms. Ramsay scored quite well
on several standardized tests without accommodations,
including the ACT and the MCAT examinations. Certainly,
in comparison to the average individual in the general

61a
Appendix B
population, Plaintiff appears to have been and continues
to be quite successful in her endeavors.
Nevertheless, while performance is unquestionably
an important factor to consider, the Regulations make
clear that it is not the only consideration. And, the
record here does reflect that Plaintiff has a history of
having struggled with reading, visual perception, focus
and attention beginning at least in the first or second
grade10. While there is no evidence that her elementary
school itself ever formally provided accommodations,
Plaintiff ’s classroom teachers did. These informal
accommodations/interventions included providing an
alphabet board to assist in reading and writing letters, a
distraction-reduced space (i.e. plaintiff was often seated at
the “time-out” desk), being kept in the classroom during
recess so she could finish the classwork that she couldn’t
10. Some examples of the evidence of such struggles from the
record include Plaintiff’s second and third grade school reports from
Sunset Oaks Academy wherein her teachers noted “I will help her
with the switching of letters” and “Jessica needs to focus on getting
her work done on time;” her Stanford Achievement Test Record from
first grade reflecting that Plaintiff scored in the 13th percentile in
Word Reading, a score that was in stark contrast to her next lowest
score in the 69th percentile for mathematics computation; and the
notation on the report of Plaintiff’s scores on the Iowa Tests of
Basic Skills and Cognitive Abilities Test from the sixth grade that
despite “seem[ing] to be high in overall cognitive ability” “Jessica’s
actual achievement is lower than expected in seven test areas. These
are Vocabulary, Reading Comprehension, Spelling, Capitalization,
punctuation, Social Studies and Math Computation. These represent
areas in which Jessica is not doing as well as she might be expected.
Jessica might do better in these areas with additional effort and with
continued encouragement.”

62a
Appendix B
finish during regular class time, being given extra time
to complete assignments and tests and spending extra
time with her teachers, provided a quiet environment,
and altered grading such that many of her elementary,
middle and high school teachers agreed to grade her
on the portions of examinations completed in lieu of the
tests in their entirety and affording her opportunities to
re-do work that were not afforded to all other students.
In addition, at or about age 7 and at the recommendation
of her classroom teacher because of “reversals in her
school work,” Plaintiff was evaluated by a therapeutic
optometrist, Dr. Mary Alice Tanguay, who performed
testing of Plaintiff’s visual perceptual and spatial skills.
Dr. Tanguay found “substantial deficits in the areas of
visual-spatial relationships, visual discrimination and was
also lacking in visual memory.” Dr. Tanguay prescribed
eyeglasses and perceptual skills training which took
place over a three-month period from February - May,
1998. When Dr. Tanguay saw Plaintiff again in January
2000, she found her comprehension and perceptual skills
to be excellent but that “[s]he still has the original vision
problem, which may slightly reduce her reading speed.”
Plaintiff testified that fourth and fifth grades became
far more difficult for her because she had to do a lot more
writing. Her homeroom teacher was also her language
arts teacher, was very strict and became angry with
her because she would often forget things, had trouble
handing in her homework and had a lot of difficulty with
writing and spelling. Only after her mother went to see
her teacher did Plaintiff’s teacher begin spending more
time with her to help her get her work done. Throughout

63a
Appendix B
Plaintiff’s middle and high school years, she spent far more
time completing her homework assignments and studying
for tests than her peers, usually receiving late-night help
from her mother to finish her work and proof-read her
papers. Her friends thought she was exaggerating because
she was always working on her homework and could only
hang out with them in the summer and occasionally on
the weekends. Plaintiff’s hard work evidently paid off as
she graduated from high school with a 3.747 grade point
average, a class ranking of 28 out of a class of 225 and an
acceptance to Ohio State University. Throughout her high
school years, Plaintiff was also a multi-sport athlete in
swimming and soccer, and played junior varsity volleyball
her freshman and sophomore years. She took the ACT in
her sophomore and junior years in high school without
accommodations and scored well (27 and 30) overall.
In college, Plaintiff testified that she had a very hard
time keeping up with the workload because of all of the
required reading. Since she had lived in Texas when she
was young where Spanish is a much-spoken language,
Plaintiff had always done well in Spanish class in high
school. In her college Spanish class oral examinations,
she always had high scores. However, her overall grades
would suffer because she had difficulty on the written
portions of the tests. She asked her instructor if it was
possible to disregard the written parts of the exams and
consider only the oral portions, but her instructor told her
that she could not do that unless plaintiff had a diagnosed
disability. Plaintiff had a similar experience in organic
chemistry and her professor in that class suggested that
she go to the University’s Office of Disability Services

64a
Appendix B
(“ODS”). ODS referred her to an advisor who in turn
recommended that she be formally evaluated.
Plaintiff then went to see her primary care doctor,
Dr. Alan Smiy who, after listening to her describe her
life-long struggles, evaluated and subsequently diagnosed
her with ADHD and told her that she probably also had
dyslexia. The record does not evince what tests, if any,
Dr. Smiy administered to Plaintiff in making his ADHD
diagnosis, though Plaintiff testified that he told her that
the testing for dyslexia was long and costly and he wasn’t
qualified to administer those tests or diagnose that. In any
event, Dr. Smiy said that the accommodations for dyslexia
were probably the same as for ADHD. He prescribed and
Plaintiff then began a trial course of Ritalin for ADHD and
the record demonstrates that she has taken medication for
ADHD since that time, although the actual medications
have varied over the years and have included Adderall
and Vyvanse. She did not pursue testing for dyslexia at
that time.
Subsequent to her formal diagnosis of ADHD from Dr.
Smiy and his completion of the necessary forms, Plaintiff
received testing accommodations from Ohio State midway
through her sophomore year. Those accommodations
included receiving additional time (1 1/2 time) on tests,
being able to take exams on paper instead of on the
computer, being permitted to use colored pens, markers or
pencils, having access to scrap paper, taking examinations
in a distraction-reduced space (typically a separate room),
and having access to an ODS counselor throughout the
balance of her college career. Plaintiff took the MCAT

65a
Appendix B
examination while still in college but, as she did not know
that she could receive accommodations for the test, she
did not ask for them and thus took the exam without any.
Plaintiff scored reasonably well nonetheless, receiving a
score of 30M.
At the end of her senior year in college, Plaintiff
applied to medical schools, but did not get in. After
graduating in June 2012 cum laude with a 3.562 grade
point average with a degree in Molecular Genetics from
Ohio State, Plaintiff took some time off, worked doing
autism research, bartending and dancing with a modern
dance company and re-applied to medical schools for
admission in 2014. She was accepted to Western Michigan
University Medical School and matriculated in the Fall
of 2014.
Upon entry to medical school, Plaintiff sought
to continue receiving the accommodations that she
had received in college. In support of the Request for
Reasonable Accommodation that Plaintiff made to
Western Michigan in 2014, Plaintiff was evaluated by
Charles Livingston, M.A., a licensed social worker and
psychologist in the fall of that year. Mr. Livingston
administered several assessment batteries, notably the
Wechsler Adult Intelligence Scale (WAIS-IV) and the
Wechsler Individual Achievement Test (WIAT) which
resulted in a “broad range in the results, compared to
other people of a similar age. Composite scores for verbal
comprehension and perceptual (non-verbal) reasoning were
both at the 96th percentile. Strengths included abstract
verbal reasoning, practical comprehension, visual spatial

66a
Appendix B
reasoning, and long-term memory. The composite score
for working memory attention, and concentration was at
the 63rd percentile. The composite score for processing
speed was at the 10th percentile.” Mr. Livingston went
on to observe:
Individuals with similar scores spend so
much time and energy in basic data entry
tasks, so to speak, that there is little left for
higher order fluid reasoning and synthesizing.
Jessie’s exceptionally bright reasoning abilities
and long-term memory stand in contrast to
relatively low attention and concentration
and very low processing speed. Her native
intelligence has been some compensation for
low abilities in the identified areas.
And he further concluded:
The diagnosis of A DHD, predominantly
inattentive, severe, 314.00 is supported by the
written records, self-report, 11 and objective
test results. There has been a persistent
pattern of careless mistakes in daily activities
and schoolwork, difficulty sustaining attention
in tasks and academics, lapses in focus when
spoken to directly, incomplete follow-through
on instructions and tasks of daily living,
being easily sidetracked, struggling to meet
deadlines, trouble keeping materials and
belongings in order, avoiding reading and
writing tasks requiring sustained mental effort,

67a
Appendix B
losing things, and being easily distracted by
extraneous stimuli. The symptoms are not
better described or indicated by a neurotic or
psychotic disorder or substance abuse. There is
historical information that suggests a likelihood
of dyslexia.
Plaintiff was subsequently granted accommodations
by her medical school which included having up to twice
the time to take examinations, taking examinations in
a distraction-reduced space (typically a separate room),
use of visual aids such as colored pencils and markers and
access to scrap paper11, access to text-to-speech software
and calculator during exams, having a granola bar or other
snack and water with her during testing, an additional
free print allowance, and written examinations on paper
(so she could mark them up). Again, included among
the examinations for which Plaintiff has received these
accommodations during her medical school career are a
number of the subject matter examinations developed by
NBME.
11. At the hearing before the undersigned, Plaintiff testified
that she uses different colored pencils in her notetaking, among
other endeavors, giving different types of diseases, conditions, etc.
different colors so that they stand out in her notes and make them
easier to locate while studying. She prefers to use pencils because
she often makes mistakes. She explained that it is difficult and
time-consuming for her to decode each word separately and read
through text so she uses her finger or another object to keep her
place as she goes through the decoding/reading process. Plaintiff
also testified that she usually needs to read through sentences and
paragraphs several times usually aloud, in order to comprehend the
meaning of the text.

68a
Appendix B
In addition to providing reports and records from Dr.
Tanguay, Dr. Smiy and Mr. Livingston, following NBME’s
initial denial of her accommodations request, Plaintiff
also underwent evaluations and/or produced the results of
her examinations by several other providers, all of whom
agreed with the diagnoses that she had been previously
given of, inter alia, Attention Deficit Hyperactivity
Disorder and Dyslexia. Specifically, Plaintiff produced
a report of her neurocognitive examination by Alan
Lewandowski, Ph.D, a board certified neuropsychologist,
who administered a broad series of assessments to Plaintiff
including the WAIS-IV, the Wide Range Achievement
Test (4th ed.), Sensory Perceptual Examination, Tactile
Finger Recognition Test, Finger-tip Number Writing
Test, Tactile Form Recognition Test, the California Verbal
Learning Test (2d ed.), the Rey Osterrieth Complex
Figure Test, a Grip Strength Test, Finger Oscillation
Tactile Performance Test, Trail Making Tests A and B,
Category Test, the Seashore Rhythm Test, the Speech
Sounds Perception Test, a Personality Assessment
Inventory and an Aphasia Screening Test. In reviewing
the results of the tests administered, Dr. Lewandowski
found that while Plaintiff’s achievement studies were
normal, her intellectual, neurocognitive and psychological
studies were abnormal/ borderline abnormal and it was
his clinical impression that Plaintiff indeed had attention
deficit hyperactivity disorder and a nonverbal learning
disability characterized by abnormal scanning and
processing speed.
Additionally, Plaintiff also produced an 8-page report
from her treating psychiatrist, Dr. Bruce Ruekberg,

69a
Appendix B
M.D., a 5-page report from Jennifer N. Houtman, M.D.,
Plaintiff’s then-primary care physician and medical
school mentor, a letter of support from David Overton,
M.D., the Associate Dean of WMed, and a 30-page report
from Robert D. Smith, Ph.D. a licensed psychologist and
neuropsychologist with the Michigan Dyslexia Institute.
For his part, Dr. Ruekberg gave his professional opinion
that Plaintiff had functional limitations due to ADHD,
Combined type and the Specific Learning Disorder
of abnormal scanning and processing speed w ith
impairments in reading and written expression and that
she thus was “without question, ... a qualified person with
disabilities under the ADA...”
Dr. Houtman confirmed “from ... personal observation
of [plaintiff] as a patient, and as a student, that she has
the following diagnoses that require accommodations:
attention deficit/hyperactivity disorder, Combined
presentation..., Learning disability, nonverbal (abnormal
scanning and processing speed... [w]ith impairment in
reading..., [w]ith impairment in written expression...,
Migraines with aura, without status migranosis...,
[c]lotting disorder with recent Deep Venous Thrombosis.../
Post-thrombotic syndrome.” (diagnostic codes from DSM5 and ICD-10 omitted).
Dr. Smith, who also testified at the hearing in this
matter, reported that he diagnosed Ms. Ramsay with
Specific Learning Disorder with impairment in reading
(developmental dyslexia), reading comprehension, severely
impaired reading rate and fluent word recognition and with
ADHD Combined after interviewing her and her mother

70a
Appendix B
and administering the following battery of tests: the Test
of Memory Malingering (TOMM), Adult ADHD Rating
Scale-IV with Adult Prompts, Nelson-Denny Reading
Test, Wechsler Individual Achievement Test (3d ed.)
(WIAT-III), Woodcock-Johnson IV Test of Achievement,
Gray Oral Reading Tests (5th ed.)(GORT), the Integrated
Visual & Auditory Continuous Performance Test (IVA +
Plus) and reviewing the Symptom Checklist-90 Revised
(SCL-90-R).
Despite this evidence and primarily in reliance on the
opinions of its two outside-contracted reviewing experts,
NBME concluded that Plaintiff is not disabled and it
has therefore denied her requests for accommodations.
NBME’s first outside reviewing expert, Steven G. Zecker,
Ph.D. is an Associate Professor of Communication Sciences
and Disorders at Northwestern University and is licensed
in Illinois as a Registered Clinical Psychologist. He testified
that he specializes in Learning Disorders and ADHD
and that he supervises the clinic run by Northwestern
University graduate students. As a clinician, Dr. Zecker
primarily sees young, school-age children aged around 6-7
years of age through young adults. He rarely sees adults.
Dr. Zecker has been employed as an external consultant
for NBME and other testing providers for the past 16
years and he reviewed both Plaintiff’s first and second
requests for accommodations on the Step 1 USMLE.
Although he did not doubt that the tests administered by
her providers had been appropriately given or that the
scores were as reported, in reviewing the documentation
submitted by Plaintiff including her personal statement,
and the reports and records outlined above, Dr. Zecker

71a
Appendix B
took exception with the conclusions reached in that he
did not believe that the tests results supported the other
providers’ findings of ADHD and LD. In any event, Dr.
Zecker stated:
Ms. Ramsay’s academic history prior to medical
school and her exceptional unaccommodated
st a nda rd i z ed t est per for ma nce, i n my
professional opinion, provide strong evidence
that Ms. Ramsay is not substantially impaired
in a major life function in a manner that
warrants accommodations on the USMLE
under the ADA.
In addition to Dr. Zecker, NBME also referred
Plaintiff’s file to Benjamin Lovett, Ph.D, who is an Associate
Professor at Teacher’s College of Columbia University and
who has also been employed as an external consultant/
reviewer by NBME and other testing providers since
2010. Dr. Lovett attested that his professional expertise is
in the diagnosis and management of neurodevelopmental
disorders, including Learning Disabilities and ADHD and
he has published numerous articles and book chapters on
these subjects. As part of his work, he often meets with
young adults who have learning and attention problems
and assesses their self-reported symptoms and their
objective performances on various tests of cognitive,
academic and behavioral functioning. Dr. Lovett testified
that ADHD and Learning Disorders are considered
under the DSM-V to be neurodevelopmental disorders
because they begin early in childhood and thus, in the
absence of symptoms during childhood, the criteria for

72a
Appendix B
diagnosing those conditions is not satisfied. Since he did
not see any evidence that Ms. Ramsay’s symptoms had
presented during childhood, he did not believe that she
had a disorder.
In review ing the documentation submitted by
Plaintiff, Dr. Lovett also did not find the scores or the
conclusions of those providers who had evaluated and
diagnosed Plaintiff to be credible. Rather, he testified
that he looks primarily at what he characterized as “realworld” test scores, i.e. those standardized tests actually
taken and under what conditions, in assessing the strength
of a diagnosis. According to Dr. Lovett,
Here, there is insufficient evidence that Ms.
Ramsay is substantially limited in her ability
to read or engage in any other activity that
is relevant to taking the USMLE, when she
is compared to most people in the general
population, at least with regard to LD/ADHD
issues. There are no historical school or work
records reflecting such limitations. Although at
times Ms. Ramsay has obtained scores during
diagnostic evaluations that would superficially
suggest possible substantial limitations, those
scores (and other evidence from the diagnostic
evaluations) are not supported by - and are
often inconsistent with - other important
evidence, including her performance on realworld timed tests that required significant
amounts of reading.

73a
Appendix B
In many ways, the outcome of this case is best
achieved by resolving a “battle of experts” and we note
our finding that all of the experts who examined Plaintiff
and/or reviewed the documents on behalf of the Defendant
and who testified at the preliminary injunction hearing
appear eminently qualified. In undertaking this resolution,
however, we are constrained to follow the provisions of
the ADA and the guidance and directives set forth in
the implementing regulations. In conjunction with those
directives, we first note that unlike Mr. Livingston and
Drs. Tanguay, Smiy, Ruekberg, Lewandowski, Houtman,
and Smith, neither Dr. Lovett nor Dr. Zecker evaluated
or even met Plaintiff before testifying before this Court
at the hearing. In rejecting the findings of all of the
aforesaid doctors and psychologists who interviewed
and administered educational and neuropsychological
testing to Plaintiff in the process of diagnosing her, Drs.
Lovett and Zecker focused primarily on Plaintiff’s record
of academic performance throughout her school years
and her performance on standardized tests and on the
paucity of documentation of disability in her primary and
secondary school years. To be sure, it is certainly possible
that they did not have the benefit of seeing all of the
early school records which were produced to this Court.
However, in their rejection of the conclusions of those
providers who actually did evaluate Plaintiff, Drs. Lovett
and Zecker instead undertook to analyze the results of the
various tests themselves, substituting their own opinions
regarding how those test results should be interpreted.
In thus adopting the findings of Drs. Zecker and Lovett,
NBME did likewise.

74a
Appendix B
This was a blatant error in light of the language of
both the statute and the relevant provisions of the Code
of Federal Regulations. Indeed, it was the stated goal
of Congress in enacting the ADA Amendments Act to
make it easier for individuals with disabilities to obtain
protection under the Act and to mandate that the definition
of “disability” “be construed broadly in favor of expansive
coverage.” See, 29 C.F.R. §1630.1(c)(4), 1630.2(j), and 28
C.F.R. §36.101(b). The Regulations clearly state that
“[t]he primary object of attention in cases brought under
the ADA should be whether covered entities have complied
with their obligations and whether discrimination has
occurred, not whether the individual meets the definition
of disability.” And, “[t]he question of whether an individual
meets the definition of disability under this part should
not demand extensive analysis.” Id. (emphasis added).
In re-analyzing the results of the numerous diagnostic
tests that were administered, Drs. Zecker and Lovett
did just that. They thus focused on whether Plaintiff
met the definition of disability, rather than whether the
covered entity had complied with their obligations under
the Act(s). Indeed, although NBME may not have liked
the terminology used in the implementing regulations,
despite its registered objections, the foregoing language
is what was enacted and it is this language which must be
followed in assessing accommodations requests under the
ADA. It decidedly did not do so in this case.
It further appears that NBME either discounted or
disregarded entirely the admonition to focus on “how
a major life activity is substantially limited, and not on
what outcomes an individual can achieve” and apparently

75a
Appendix B
ignored the example that “someone with a learning
disability may achieve a high level of academic success,
but may nevertheless be substantially limited in the
major life activity of learning because of the additional
time or effort he or she must spend to read, write, or
learn compared to most people in the general population.”
29 C.F.R. §1630.2(j)(4)(iii). NBME’s exclusive focus on
Plaintiff’s prior academic successes and her performance
on the ACT and MCAT standardized examinations without
accommodations was therefore improper, particularly
given that we can discern that no consideration was given
to the other evidence produced by Plaintiff, including her
lengthy personal statement12 .
Finally, we also find that Defendant ran afoul of
28 C.F.R. §36.309(b)(v) which requires that “[w]hen
considering requests for ... accommodations ... the [testing]
entity give[]considerable weight to documentation of
past modifications, accommodations, or auxiliary aids or
services received in similar testing situations...” Again,
it does not appear from the record that NBME gave
any consideration, much less the “considerable weight”
required to Ms. Ramsay’s past record of having received
accommodations.
In view of all of the evidence provided by Plaintiff both
in the form of the materials and supporting documentation
submitted to NBME pursuant to her numerous requests
12. It should be noted that the Personal Statement was required
by NBME to be submitted along with all of the other required
documentation in order for the request for accommodations to be
considered.

76a
Appendix B
for accommodations and requests for reconsideration of
the denials thereof and at the three-day hearing before
the undersigned, we find that Plaintiff has sufficiently
established that she is indeed a qualified individual with a
disability within the meaning of the ADA despite her prior
academic successes and her performances on standardized
tests. Indeed, we find that the evidence as outlined above
supports the conclusion that, despite having Attention
Deficit/Hyperactivity Disorder and Dyslexia/Learning
Disorder of reading/scanning/processing speeds, Ms.
Ramsay has been able through her high intelligence and
remarkably hard work habits to achieve great academic
success. Thus, Plaintiff has shown the requisite likelihood
of success on the merits of her Complaint in this matter.
We also find that the evidence supports the finding
that Plaintiff will suffer irreparable harm unless granted
preliminary relief. Again, the record evidence reflects that
unless Plaintiff takes and passes her Step 1 USMLE by
March 2, 2020, she will be forced to withdraw from medical
school and that it is highly unlikely that she would be able
to transfer to another school, given what has transpired.
That enrollment in a medical school is a pre-requisite to
being allowed to sit for the Step 1 exam is further evidence
of the “Catch 22” in which Plaintiff finds herself and
further supports the conclusion that her medical career
will effectively end if she cannot satisfy WMed’s mandate
by March 2, 2020. The element of irreparable harm is
thus satisfied.
Finally, we also find the record evidence supportive
of a finding that the balance of equities and the public

77a
Appendix B
interest both militate in favor of granting injunctive
relief here. It is obviously in the public interest that the
dictates of the ADA and the RHA be followed - Congress
so decreed by passing both statutes. Further, one need
only to read the myriad newspaper and magazine articles
or watch television documentaries, among other news
sources, to learn that there remains a great need for
qualified and capable physicians throughout the United
States, particularly in rural, economically-depressed
areas of the Country. While we share NBME’s concern for
the fulfillment of its mission to provide such physicians,
we feel certain that granting this plaintiff the relief which
she seeks here does not run afoul of this goal. In granting
preliminary relief, we are granting Plaintiff only the
opportunity to move forward should she succeed in passing
her examinations with appropriate accommodations. This
Court is not a licensing or credentialing body and by this
decision we do not assume that mantle.
In furtherance of all of the preceding findings, we now
enter the following:
CONCLUSIONS OF LAW
1. This Court has jurisdiction over the parties and
the subject matter of this action pursuant to 28 U.S.C.
§§1331 and 1343.
2. Plaintiff is disabled within the meaning of the
Americans with Disabilities and the Rehabilitation
Acts by virtue of her diagnoses of Attention Deficit
Hyperactivity Disorder, Specific Learning Disorder with

78a
Appendix B
impairments in reading (developmental dyslexia), and
reading comprehension, Migraine Headaches and Deep
Vein Thrombosis/Post-Thrombotic Syndrome.
3. As a disabled individual under the foregoing federal
statutes, Plaintiff is entitled to reasonable accommodations
in sitting for examinations given by any person or entity
relating to applications, licensing, credentialing, or
certification for secondary or post-secondary education,
professional or trade purposes.
4. Defendant NBME, by virtue of its status as the
testing organization responsible, along with the Federation
of State Medical Boards, for the administration of, inter
alia, the United States Medical Licensing Examination
(“USMLE”), is obligated to offer its exams in such place
and manner as would make those exams accessible to
persons with disabilities or to offer alternative accessible
arrangements for such individuals, i.e. to provide
reasonable accommodations where necessary.
5. Plaintiff’s request for additional (2X or double)
time to complete the USMLE was reasonable, as were
her requests for a separate, distraction-reduced room for
testing, colored dry-erase markers to use on the laminated
paper, an alarm or timer (either in the room, visible on
the computer screen or a visual signal or reminder from a
proctor), water and a snack in the room to facilitate taking
needed medications at the appropriate times, given the
nature of her disabilities.
6. Defendant’s continued denial/refusal to grant
Plaintiff’s request for double time to take the USMLE

79a
Appendix B
was unreasonable and constitutes a violation of her rights
under the ADA.
7. Plaintiff has demonstrated a strong likelihood that
she will succeed on the merits of the claims raised in her
Complaint were this case to proceed to trial.
8. Plaintiff has demonstrated that, in the absence
of the issuance of a preliminary injunction directing
Defendant to refrain from refusing to provide her with
the reasonable accommodation of 100% extended testing
time on the USMLE Step 1 examination, she will suffer
and will continue to suffer immediate irreparable harm
for which there is no adequate remedy at law.
An Order follows.

80a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT, FILED
SEPTEMBER 1, 2020
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1058
JESSICA RAMSAY,
v.
NATIONAL BOARD OF MEDICAL EXAMINERS,
Appellant.
(E.D. Pa. No. 2-19-cv-02002)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, A MBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and RENDELL*, Circuit
Judges
The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the judges
who participated in the decision of this Court and to all
the other available circuit judges of the circuit in regular
* Hon. Marjorie O. Rendell vote limited to panel rehearing only.

81a
Appendix C
active service, and no judge who concurred in the decision
having asked for rehearing, and a majority of the judges
of the circuit in regular service not having voted for
rehearing, the petition for rehearing by the panel and the
Court en banc, is denied.
BY THE COURT,
/s/ Patty Shwartz
Circuit Judge
Date: September 1, 2020

82a
APPENDIX D — Appendix
RAMSAYDACADEMIC AND
TESTING SUMMARIES
JESSICA RAMSAY PRE-MEDICAL SCHOOL
STANDARDIZED TESTS TAKEN WITHOUT ANY
ACCOMMODATIONS
Kindergarten
(DX 24)

Stanford
Complete Battery: 96th%
Early School Total Reading:
96th%
Achievement
Test

First
Grade
(DX 25)

Stanford
Complete Battery: 87th%
Achievement Total Reading:
70th%
Test

Second
Grade
(DX 27)

Stanford
Complete Battery: 92nd%
Achievement Total Reading:
88th%
Test

Sixth
Grade
(DX 27)

Iowa Tests
of Basic
Skills and
Cognitive
Abilities
Test

Composite:
Reading Total:

86th%
74th%

Tenth
Grade
(DX 29)

ACT Plan
exam

Composite:
English:
Reading:

97th%
98th%
73rd%

83a
Appendix D
Tenth
Grade
(DX 28)

PSAT/
NMSQT

Composite:
Critical Reading:

71st%
71st%

Eleventh
Grade
(DX 28)

PSAT/
NMSQT

Composite:
82nd%
Critical Reading: 70th%

Eleventh
Grade
(DX 30)

ACT Exam

Composite:
English:
Reading:

90th%
96th%
87th%

Twelfth
Grade
(DX 31)

ACT Exam

Composite:
English:
Reading:

97th%
94th%
91st%

College
(DX 32)

MCAT
Exam

Composite:
79th%
Verbal Reasoning: 67th%
Physical Sciences: 79th%
Biological Sciences:88th%

JESSICA RAMSAY PERFORMANCE ON
DIAGNOSTIC ASSESSMENTS
Dr. Smith
Evaluation
Report
(11/6/2018)
(DX 3, Ex. B)

WIAT-III Oral Reading Fluency
WJ-4 Reading Rate Cluster
GORT-5 Reading Rate
GORT-5 Comprehension
GORT-5 Fluency
Nelson-Denny Reading Rate

1st%
1st%
1st%
1st%
2nd%
1st%

84a
Appendix D
JESSICA RAMSAY ACADEMIC HISTORY
Kindergarten
(DX 9)
First
grade
(DX 10)
Second
grade
(DX 11)
Third
grade
(DX 13)

Sunset Oaks
Academy

Grades: All E’s and S+’s

Sunset Oaks
Academy

Grades: All E’s and S+’s
(plus a 94 in phonics, 93/
spelling and 98/math)
Grades: All E’s and S+’s
(plus a 94/phonics, 97/
spelling, 97/math)
Grades: All A’s (final
grades)
No “Specialized Reading
Support” or “Grades
based on intensive
teacher assistance”

Fourth
grade
(DX 14)

CarroltonFarmers
Branch

Sunset Oaks
Academy
CarroltonFarmers
Branch

Grades: All A’s (final
grades)
No “Specialized Reading
Support” or “Grades
based on intensive
teacher assistance”
Participated in gifted &
talented program

85a
Appendix D
Fifth
grade
(DX 15,
DX 16)

Sixth
Grade
(DX 17)
High
School
(9th - 12
grades)
(DX 18)
College
(DX 22)

CarroltonFarmers
Branch

Brown
Elementary
School
Upton Middle
School

Grades: Mostly A’s,
two B’s
No “Specialized Reading
Support” or “Grades
based on intensive
teacher assistance”
Participated in gifted &
talented program
Grades: All A’s (final
grades)
Grades: All A’s

Saint Joseph’s
High School

Cumulative GPA: 3.747
Class rank: 28 out of 225
(top 12%)

Ohio State
University (No
accommodations
approved until
May of second
year)

Cumulative GPA:
First Year GPA:

3.57
3.53

Second Year GPAs,
Autumn & Winter: 3.925
& 3.641

